<html>
<title></title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                                     

                         [H.A.S.C. No. 116-86]

                   DEPARTMENT OF DEFENSE AUTHORITIES

                     AND ROLES RELATED TO CIVILIAN

                            LAW ENFORCEMENT

                               __________

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD

                              JULY 9, 2020


                                     
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 


                                __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
42-162 PDF                  WASHINGTON : 2021                     
          
--------------------------------------------------------------------------------------


                                     
                      COMMITTEE ON ARMED SERVICES
                     One Hundred Sixteenth Congress

                    ADAM SMITH, Washington, Chairman

SUSAN A. DAVIS, California           WILLIAM M. ``MAC'' THORNBERRY, 
JAMES R. LANGEVIN, Rhode Island          Texas
RICK LARSEN, Washington              JOE WILSON, South Carolina
JIM COOPER, Tennessee                ROB BISHOP, Utah
JOE COURTNEY, Connecticut            MICHAEL R. TURNER, Ohio
JOHN GARAMENDI, California           MIKE ROGERS, Alabama
JACKIE SPEIER, California            K. MICHAEL CONAWAY, Texas
TULSI GABBARD, Hawaii                DOUG LAMBORN, Colorado
DONALD NORCROSS, New Jersey          ROBERT J. WITTMAN, Virginia
RUBEN GALLEGO, Arizona               VICKY HARTZLER, Missouri
SETH MOULTON, Massachusetts          AUSTIN SCOTT, Georgia
SALUD O. CARBAJAL, California        MO BROOKS, Alabama
ANTHONY G. BROWN, Maryland, Vice     PAUL COOK, California
    Chair                            BRADLEY BYRNE, Alabama
RO KHANNA, California                SAM GRAVES, Missouri
WILLIAM R. KEATING, Massachusetts    ELISE M. STEFANIK, New York
FILEMON VELA, Texas                  SCOTT DesJARLAIS, Tennessee
ANDY KIM, New Jersey                 RALPH LEE ABRAHAM, Louisiana
KENDRA S. HORN, Oklahoma             TRENT KELLY, Mississippi
GILBERT RAY CISNEROS, Jr.,           MIKE GALLAGHER, Wisconsin
    California                       MATT GAETZ, Florida
CHRISSY HOULAHAN, Pennsylvania       DON BACON, Nebraska
JASON CROW, Colorado                 JIM BANKS, Indiana
XOCHITL TORRES SMALL, New Mexico     LIZ CHENEY, Wyoming
ELISSA SLOTKIN, Michigan             PAUL MITCHELL, Michigan
MIKIE SHERRILL, New Jersey           JACK BERGMAN, Michigan
VERONICA ESCOBAR, Texas              MICHAEL WALTZ, Florida
DEBRA A. HAALAND, New Mexico
JARED F. GOLDEN, Maine
LORI TRAHAN, Massachusetts
ELAINE G. LURIA, Virginia
ANTHONY BRINDISI, New York

                     Paul Arcangeli, Staff Director
                Will Johnson, Professional Staff Member
               Mark Morehouse, Professional Staff Member
                      Natalie de Benedetti, Clerk
                           
                           
                           C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Smith, Hon. Adam, a Representative from Washington, Chairman, 
  Committee on Armed Services....................................     1
Thornberry, Hon. William M. ``Mac,'' a Representative from Texas, 
  Ranking Member, Committee on Armed Services....................     5

                               WITNESSES

Esper, Hon. Mark T., Secretary of Defense, U.S. Department of 
  Defense........................................................     6
Milley, GEN Mark A., USA, Chairman, Joint Chiefs of Staff........     9

                                APPENDIX

Prepared Statements:

    Esper, Hon. Mark T...........................................    51
    Milley, GEN Mark A...........................................    86

Documents Submitted for the Record:

    Memorandum for Secretary of the Army: After Action Review of 
      National Guard Actions in Support of Civil Disturbance 
      Operations.................................................    93
    Times of London Article......................................    95
    Fox News Article.............................................   104

Witness Responses to Questions Asked During the Hearing:

    Mrs. Hartzler................................................   109
    Mr. Moulton..................................................   109
    Mr. Waltz....................................................   109

Questions Submitted by Members Post Hearing:

    Mr. Brindisi.................................................   114
    Mr. Cisneros.................................................   113
    Ms. Slotkin and Ms. Sherrill.................................   116
    Mrs. Trahan..................................................   114
    
  DEPARTMENT OF DEFENSE AUTHORITIES AND ROLES RELATED TO CIVILIAN LAW 
                              ENFORCEMENT

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                            Washington, DC, Thursday, July 9, 2020.
    The committee met, pursuant to call, at 1:00 p.m., in room 
2322, Rayburn House Office Building, Hon. Adam Smith (chairman 
of the committee) presiding.

  OPENING STATEMENT OF HON. ADAM SMITH, A REPRESENTATIVE FROM 
       WASHINGTON, CHAIRMAN, COMMITTEE ON ARMED SERVICES

    The Chairman. I call the meeting to order. I welcome our 
witnesses, Secretary of Defense Esper and Chairman of the Joint 
Chiefs of Staff Milley. We appreciate you being here today.
    I do have to read an opening statement here about procedure 
in light of the fact that we do have members who are 
participating remotely in this hearing in accordance with House 
rules. So I will do that, and then a couple other programming 
notes, and we will get started.
    I would like to welcome members who are joining today's 
markup remotely. Those members are reminded that they must be 
visible onscreen within the software platform for the purposes 
of identity verification when joining the proceeding, 
establishing and maintaining a quorum, participating in the 
proceeding, and voting.
    Well, we are not going to be voting. But members 
participating remotely must continue to use the software 
platform video function while attending the proceeding unless 
they experience connectivity issues or other technical problems 
that render the member unable to fully participate on camera.
    If a member who is participating remotely experiences 
technical difficulties, please contact us and we will help you.
    When recognized, video of remotely attending members' 
participation will be broadcast in the room and via the 
television internet feeds. Members participating remotely are 
asked to mute their microphone when they are not speaking.
    Members participating remotely will be recognized normally 
for asking questions. But if they want to speak at another time 
they must seek recognition verbally. In all cases, members are 
reminded to unmute their microphone prior to speaking.
    Members should be aware that there is a slight lag of a few 
seconds between the time you start speaking and the camera shot 
switching to you.
    Members who are participating remotely are reminded to keep 
the software platform video function on for the entirety of the 
time they attend the proceeding. Those members may leave and 
rejoin the proceeding.
    If members depart for a short period for reasons other than 
joining a different proceeding, they should leave the video 
function on. If members will be absent for a significant period 
or depart to join a different proceeding, they should exit the 
software platform entirely and then rejoin it if they return.
    Members are also advised that I have designated a committee 
staff member to, if necessary, mute unrecognized members' 
microphones to cancel any inadvertent background noise.
    Members may use the software platform's chat feature to 
communicate with staff regarding technical or logistical 
support issues only.
    Finally, remotely participating members should see a 5-
minute countdown clock on the software platform's display. But, 
if necessary, I will remind members when their time is up.
    The only additional notes I would make to that, apparently, 
if your microphone in here is left on when you are not speaking 
it can generate some feedback within the platform.
    So if you are not speaking turn the microphone off so that 
we can avoid that feedback. So I am going to make an opening 
statement. Mr. Thornberry is going to make an opening 
statement.
    We have a hard stop in this hearing at 3:00 o'clock. I am 
not going to ask any questions. I will go right to the first 
member on our side of the aisle who is in order.
    I will just let my opening statement stand.
    So the purpose of this hearing is to look at the events 
surrounding the Department of Defense's response to the 
protests that arose out of the murder of George Floyd in 
Minneapolis, and sort of twofold what I would like to 
accomplish.
    One, we would like to better understand what happened, how 
was the DOD [Department of Defense] involved, what were the 
steps between the DOD and the White House and the decisions 
that were made at the various points about DOD involvement 
specifically in dealing with domestic unrest.
    To begin with, there is the basic question of Guard units, 
and this is pretty straightforward and we have used Guard units 
for a number of different reasons to deal with the emergencies 
in States across the country.
    The Department of Defense works with the Governor of every 
State to determine that. But getting a little clarity as to how 
that process worked in this case would be enormously helpful.
    Then there is the more complicated question of how this 
applies to Washington, DC. As we all know, they don't have a 
Governor. The Department of Defense has greater authority over 
the Guard in the District of Columbia than they do in States. 
How did that play out? How was the coordination handled between 
the mayor of DC, the police force in DC?
    And then also adding to the confusion, the Department of 
Justice has various security personnel that they employed 
within Washington, DC. There is considerable concern about how 
all of that played out.
    What was the level of coordination? Why were there 
helicopters, military helicopters buzzing over the top of 
protestors in the middle of that protest? Who made that 
decision? What was the level of coordination?
    And then connected to all of this, as we get beyond the 
normal use of the Guard, is the Insurrection Act, is the 
ability of the President to activate Active Duty military 
personnel over the objections of Governors that use them to 
deal with civil unrest.
    How was that considered in this context? There seemed to be 
conflicting statements out of the White House and out of the 
Department of Defense about how that was being viewed.
    We would like to know what came to pass in that regard, and 
in particular, the one group of Active Duty troops that were 
called up they were never, as I understand it, deployed but 
they were put on standby across the river in Virginia for 
potential use in Washington, DC. What played out in that 
decision as well?
    But then more broadly than just what happened in this 
instant, this is something that is going to involve our country 
in the future, without a doubt. We will have different 
Presidents and different Secretaries of Defense and different 
Chairmen of the Joint Chiefs of Staff who will be having to 
make decisions like this.
    So what is the Department's view on the role that they 
should play in dealing with civil unrest? What role should the 
Guard play? How should they coordinate with Governors? When do 
they think the Insurrection Act is appropriate to be used? How 
does all of that play out?
    And then, more specifically on that, is the question of 
how, regardless of whether it is the DOD or the State or 
whoever, how do you deal with civil unrest?
    Now, I was struck by the fact that there seemed to be a 
lack of coordination and a lack of thought in that response. I 
am not talking about DOD.
    I am talking about across the country as people saw these 
protests rise up, in some cases turning violent, what was the 
plan for dealing with that?
    There's actually a lot of very well-documented history 
about how to deal with domestic unrest, ranging everywhere 
from, you know, civil war to protest movements, and we have 
studied this extensively.
    I have read quite a bit about it and, you know, what is our 
plan? You had a lot of the President's rhetoric that sort of 
sounded like, you know, basically, we will crush you so you 
better stop doing this, to a more nuanced approach to how do 
you de-escalate, how do you protect the legitimate right of 
people in this country to protest while at the same time 
stopping crime, stopping protest movements from becoming 
violent.
    I think it is something that requires thought, and all 
leaders in a place to make those decisions need to be better 
educated on how that comes to pass.
    And then the last two things that I would like to touch on 
is, one, the disturbing lack of coordination between what the 
White House was saying and what DOD was saying and, in some 
cases, doing.
    The President started a lot of this with his announcement, 
and forgive me, I forget the exact words, but the general gist 
of it was, you know, we will bring order to this country and if 
the Governors don't do it then I will use the Active Duty 
military to do it for them.
    That statement did not seem to be followed up by any actual 
actions to do it, but why would he say that if that was the 
case? And what sort of conversations went on between the 
Department of Defense and the President and others in the White 
House about the best way to respond to that?
    And that gets to an interesting part of this and that is 
the difficult position that any Secretary of Defense and any 
Chairman of the Joint Chiefs of Staff is in. You work for the 
President. He is the Commander in Chief. That is the way the 
flow chart goes, and his decisions are final and you have to 
follow those.
    Now, it is absolutely impossible that any person in either 
of your positions would agree 100 percent of the time with 
everything the President said. How do you handle those 
disagreements?
    How do you work through that, you know, admittedly, that 
you can't come out in public and say, yeah, I think my boss is 
an idiot; I completely disagree with his decision. And it is 
something that happens in this committee all the time.
    I have been on this committee through four Presidents--two 
Republicans, two Democrats--and whenever that is the case, 
invariably, the party up here that is not in the White House 
tries to get everybody at the Department of Defense to admit 
that some decision by the President, they don't agree with it.
    Under President Obama it happened all the time. We had DOD 
personnel up here. Some decision was made. They would say, come 
on, you really don't think that is the right thing to do.
    I do understand that, in my time anyway, I have never seen 
a single solitary witness confess and say, oh, yeah, I thought 
that was stupid. That is not the way it works, and I am not 
looking for that.
    I am looking for an understanding as to how the White House 
and DOD can better coordinate. We have had a disturbing 
pattern, not just on the domestic unrest issues but on a number 
of issues, of the White House seemingly out of the blue making 
bold policy statements that affect DOD decisions that do not 
appear to have been well coordinated or certainly not well 
delivered: the decision to pull out of Syria, the decision to 
remove troops from Germany, the decision to ban transgender 
people from serving in the military.
    That one was particularly galling because it came within 
days after every service chief had testified that there was no 
problem with them serving. Then a tweet goes out and DOD has to 
respond.
    That sends a mixed message to the country about what our 
defense policy is and, in particular, what happened on Syria 
when that announcement was made and then we had to figure out 
how to make that work.
    So we are curious within those limitations how is that 
coordination happening.
    Lastly, there is concern about the politicization of the 
military and, again, this is not unique to any one President. 
The President is the Commander in Chief, has a duty to, you 
know, guide the military and, at the same time, has political 
interests.
    But how do we make sure those two things get separate--stay 
separate, sorry. And the biggest concern of that, obviously, 
was the incident at St. John's Church when the President and 
Secretary of Defense and a few others, you know, took a picture 
in front of the church and then it was quickly turned around 
into a political ad.
    You know, it is, I think, incredibly important that we 
respect the institutions of our government irrespective of who 
is in charge. You know, we are a nation of laws, a nation of 
institutions, not a nation of any one individual.
    Long after this President is out of office, long after all 
of us are gone from our current positions, there will be new 
people in those positions and those institutions need to 
survive on their own, not to serve any one particular person's 
political interests.
    And I am very concerned about the Department of Defense 
becoming unduly politicized. I will say, for the record, that I 
think both of these gentlemen have done, by and large, an 
excellent job of not doing that, even in what is a very 
difficult environment.
    We have seen politicization happen in the Department of 
Justice, in the intel community, to, I personally feel, a 
shocking degree. I have not seen that at the Department of 
Defense and I respect that.
    I just want to make sure that it doesn't happen because you 
make bad decisions in that environment. If the decision is 
based on the loyalty to one individual instead of loyalty to 
the country, loyalty to the law, loyalty to what is in all of 
our best interests, it makes a difficult job even more 
difficult.
    So I look forward to the witnesses' answers to these 
questions and explanations of what happened, and more than 
anything I think it is incredibly appropriate that the public 
sees this in one straightforward situation where two of the 
people who are in the middle of this can tell what happened, 
what the thinking was, so that we can have greater confidence 
in those institutions that we so greatly need to make sure that 
we remain a stable and peaceful nation.
    And with that, I will yield to Mr. Thornberry for his 
opening statement.

      STATEMENT OF HON. WILLIAM M. ``MAC'' THORNBERRY, A 
 REPRESENTATIVE FROM TEXAS, RANKING MEMBER, COMMITTEE ON ARMED 
                            SERVICES

    Mr. Thornberry. Thank you, Mr. Chairman, and let me join in 
welcoming the Secretary and the Chairman to be with us, and we 
appreciate your flexibility in these rather unusual 
circumstances and locations and all that is required with--in 
the current situation.
    In addition to many of the specific questions that the 
chairman laid out, I think one of the most important things 
that you all can help us do, which the chairman also mentioned 
a couples times, is help us look at these issues in context, 
both in a historical context and a context of everything that 
the military is being asked to do these days.
    Because I am struck by the fact that even when you look at 
DOD's support to civilian law enforcement, obviously, we think 
of the protests and what happened here in Washington.
    But elements of the military have been doing a lot of law 
enforcement missions related to COVID [coronavirus disease] for 
months. Again, it is primarily the National Guard that has been 
doing that. But it seems to me since the beginning of the year 
the military has been asked to take on a number of additional 
missions unexpectedly that require different kinds of training 
and preparation but, at the same time, you still have to pay 
attention to the Russians, the Chinese, the North Koreans, the 
Iranians, and the terrorists who are trying to kill us every 
day.
    And so it is in that larger context, I think, that I am 
particularly interested in your assessment on how our people 
are doing and also how our budgets are doing, because even when 
it is the Guard in many of these situations that are being 
asked to do civilian law enforcement, DOD is footing the bill 
for that.
    So, again, my point is in addition to a number of 
particular questions, the larger context, how the military is 
doing with these added responsibilities is important.
    Last thing I just want to say is, agreeing with the 
chairman, the temptation here is to focus on a particular 
incident, a particular President, and particular political 
differences.
    I think what is most helpful for us, as the chairman said, 
Presidents come and go. Everybody in our jobs come and go. We 
are talking in part about an act that was passed in 1807 and 
hasn't been changed very much since then.
    So the historical context is also, seems to me, important 
with the institutions. You know, I keep always in the forefront 
of my mind the Gallup polls that are done every year, what 
institutions do you respect the most. The military is at the 
top of the list, and that is a key national strength of this--
of this country.
    And whatever we do, we want to make sure that the men and 
women who serve the military continue to have that exalted 
position of respect throughout the country as Presidents come 
and go and as issues and incidents come and go. And to me, that 
is a key responsibility of this Congress.
    Like the chairman, I am not going to ask specific 
questions. I will go directly to the folks on our side.
    But, again, thank you both for being here.
    The Chairman. Thank you.
    Mr. Secretary.

  STATEMENT OF HON. MARK T. ESPER, SECRETARY OF DEFENSE, U.S. 
                     DEPARTMENT OF DEFENSE

    Secretary Esper. Chairman Smith, Ranking Member Thornberry, 
and distinguished members of the House Armed Services 
Committee, thank you for the opportunity to be before you 
today.
    Throughout our history, the United States military has 
demonstrated an unwavering commitment to uphold our oath to the 
Constitution and to support our civil authorities.
    Over the past several months, more than 60,000 service 
members have unfailingly answered our Nation's call, working on 
the front lines in the fight against the COVID-19 pandemic, 
saving lives and stemming the spread of the virus.
    At the same time, we are hard at work as part of Operation 
Warp Speed to accelerate the development, manufacture, and 
distribution of therapeutics and vaccines at scale by the end 
of the year.
    And over the next few months, we will likely be called upon 
by the States once again to support hurricane and wildfire 
relief efforts.
    No matter the challenges or circumstances, our service 
members stand ready to serve and I am incredibly proud of their 
dedication and commitment to our fellow Americans.
    In late May, our ongoing support to civil authorities' 
mission expanded in the wake of the horrible killing of George 
Floyd and an officer being charged with his murder, a tragedy 
we have seen repeated too often in our Nation.
    Following his tragic death, thousands of our fellow 
citizens sought to exercise their First Amendment rights to 
free speech and peaceful assembly.
    While most of these protests were law-abiding, it is clear 
that some individuals exploited a situation to sow chaos and 
commit acts of violence, destruction, and theft.
    That is why at the height of the civil unrest more than 
43,000 National Guard personnel were called upon by Governors 
across the country to uphold the rule of law, safeguard life 
and property, and protect the rights of Americans, all 
Americans, to protest safely and peacefully.
    As a former soldier and member of the National Guard, I am 
a firm believer that in these situations the Guard is best 
suited to provide domestic support to civil authorities in 
support of law enforcement.
    Using Active Duty forces in a direct law enforcement role 
should remain a last resort and only in the most urgent and 
dire of situations.
    I want to make very clear that no Active Duty military 
units engaged protestors or otherwise took part, direct part, 
in civilian law enforcement or Federal protection missions in 
the District of Columbia or anywhere else in the country.
    And with regard to the role the National Guard played in 
Lafayette Park on June 1, I also want to make clear the 
following: that the Guard did not advance on the crowd, that 
the Guard did not shoot rubber bullets, that the Guard did not 
employ chemical agents of any type.
    Rather, the Guard remained in a static role as backup to 
law enforcement if needed.
    A detailed account of DOD's involvement in the civil unrest 
beginning May 29th, 2020, is included in my written testimony 
submitted for the record.
    Following the events that transpired in the District of 
Columbia, I directed the Secretary of the Army to complete a 
full after-action review by the end of July.
    I also directed investigations into two separate incidents 
that occurred that week.
    And, Mr. Chairman, with your permission I would like to 
enter into the record my directive to the Secretary of the Army 
with regard to the conduct of his after-action review.
    The Chairman. Without objection, so ordered.
    [The information can be found in the Appendix on page 93.]
    Secretary Esper. As the American people continue to express 
their outrage at the killing of Mr. Floyd and long for 
meaningful change, we once again face the painful truth that 
racism is real in America.
    We also know that the Department of Defense is not immune 
to the forces of bias and prejudice, whether seen or unseen, 
deliberate or unintentional. These issues have no place in our 
military because they degrade the morale, cohesion, and 
readiness of our force.
    While our military has often led on addressing these 
issues, the events of recent weeks are a stark reminder that 
much more work remains to be done.
    Therefore, on June 17th, I announced three new initiatives 
aimed at advancing equal opportunity, diversity, and inclusion 
across our force.
    First, I directed our civilian and uniformed leadership in 
the Pentagon to bring me concrete ideas by the end of June that 
we could implement quickly, such as removing photos from 
selection boards.
    Second, I established an internal Department of Defense 
Board on Diversity and Inclusion, which will provide 
recommendations by the end of the year on how we can increase 
diversity and ensure equal opportunity for all service members.
    Finally, I began the process of establishing a Defense 
Advisory Committee on Diversity and Inclusion in the Armed 
Services that will be a permanent structure composed of an 
independent and diverse group of Americans committed to 
building upon the work of the Defense Board over the long term.
    These are just the first steps towards shifting our culture 
and creating lasting change across our enterprise. In doing so, 
we will build a better force, one that is diverse, inclusive, 
and more representative of the American people we serve and we 
protect.
    And while we may come from different backgrounds and parts 
of the country, we all make the same commitment: to support and 
defend the Constitution of the United States.
    We all strive to uphold that oath and serve in an 
apolitical manner at all times. By doing so, we earn the trust 
and confidence of the American people.
    Meanwhile, while much has been focused on our support to 
our fellow Americans at home, thousands of military personnel 
remain engaged abroad, in harm's way, to ensure that we can 
enjoy the blessings of this country.
    We take very seriously any threats to our forces, whether 
in Afghanistan or anywhere else across the globe. I want our 
adversaries to know that we will always do our utmost to ensure 
their safety and security.
    In closing, I want to assure the American people that the 
Department of Defense takes seriously our oath to defend the 
Constitution, with many having paid the ultimate sacrifice to 
protect the sacred rights and freedoms this document guarantees 
all of us.
    We will continue to protect and defend our homeland, our 
people, and our way of life as we work to build a better force, 
one that represents the rich diversity of our great Nation.
    Thank you.
    [The prepared statement of Secretary Esper can be found in 
the Appendix on page 51.]
    The Chairman. Chairman Milley.

STATEMENT OF GEN MARK A. MILLEY, USA, CHAIRMAN, JOINT CHIEFS OF 
                             STAFF

    General Milley. Chairman Smith, Ranking Member Thornberry, 
distinguished members of the committee, thank you for the 
opportunity to appear before you today with Secretary Esper.
    It is indeed an honor to represent the soldiers, sailors, 
airmen, Marines, and coastguardsmen stationed around the world 
protecting our freedoms.
    Today, as you know, we are operating globally and here at 
home. The past few months have been exceptionally challenging 
times for America. The COVID-19 pandemic has stressed our 
health system, our economy, and the social fabric of our 
communities.
    In addition, George Floyd's death amplified the pain, the 
frustration, and the fear that so many of our fellow Americans 
live with day in and day out.
    I have many policemen in my family and I am personally 
outraged by George Floyd's brutal and senseless killing. The 
protests that have ensued not only speak to this injustice but 
also to centuries of injustice towards Black Americans.
    We as a nation and as a military are still struggling with 
racism and we have much work to do. We who wear the cloth of 
our Nation understand that cohesion is a force multiplier. 
Divisiveness leads to defeat. As one of our famous Presidents 
said, a house divided does not stand.
    Our troops are part of cohesive teams consisting of people 
of different races and genders and religions and sexual 
orientations, working to accomplish their mission in peace and 
war all over the globe.
    Equality and opportunity are matters of military readiness, 
not just political correctness. There is no place in our Armed 
Forces for manifestations or symbols of racism, bias, or 
discrimination.
    We, the military, have a long history of inclusiveness, 
teamwork, and merit that is the keystone to American military 
success.
    In fact, this month, 71 years ago in 1948, Harry Truman 
integrated the Armed Forces of the United States, 17 years 
before the 1965 Civil Rights Act.
    But we are not perfect and we must thoughtfully examine our 
institution and ensure it is a place where all Americans see 
themselves represented and have equal opportunity to succeed, 
especially in leadership positions, and every member of our 
joint force, including myself, has sworn an oath to support and 
defend the United States Constitution.
    This oath underpins my duties as the Chairman of the Joint 
Chiefs of Staff and I am deeply committed to fulfilling both 
the letter and the spirit of my oath, regardless of 
consequences to self.
    We, the United States military, hold dear the Constitution 
and the principle of an apolitical military that is so deeply 
rooted in the very essence of our republic.
    My role as the Chairman is to be the principal military 
advisor to the President of the United States, the Secretary of 
Defense, the National Security Council, and the Homeland 
Security Council, and throughout the recent period of civil 
unrest in our Nation I exercise this role exclusively.
    At no time was I ever in command of any forces. All of my 
actions have been consistent with my statutory authority as an 
advisor who is explicitly not in the chain of command.
    We should also be proud, proud that the vast majority of 
the protests we saw around the country were peaceful, and 
peaceful protest means that American freedom is working.
    Some protests, however, turned violent. In Minneapolis, 
significant violence began on the evening of 26 May where 
looting, commercial property damage, and arson quickly 
overwhelmed the Minneapolis firefighters and police officers.
    On 28 May, Governor Tim Walz declared a state of emergency 
and activated the Minnesota Guard under his authority and 
deployed them to Minneapolis to support State and local law 
enforcement.
    The Secretary of Defense and I spoke by telephone with the 
Governor to better understand the situation in Minneapolis and 
see if he required any additional assistance. This conversation 
helped inform my military advice.
    Over the night of 29 May, the number of violent protests 
increased nationally to 13 major cities, escalating to 34 just 
2 days later.
    By the morning of 1 June, 29 States and the District of 
Columbia had activated the National Guards, totaling more than 
17,000 National Guards men and women.
    And Washington, DC, our Nation's capital, faced 3 nights of 
escalating violence starting on Friday, May 29th. The White 
House increased its security posture. The Federal Government 
vacated certain buildings. Our Nation's monuments and 
government buildings were defaced. Businesses in DC were looted 
and some were set ablaze.
    With more than 420 arrests and 150 law enforcement officers 
and half a dozen National Guardsmen injured, it was reported to 
me that it was the worst 3 days of violence in Washington, DC, 
in over 30 years.
    There were troops and police from 22 different 
organizations not including those from the Active Duty in the 
vicinity of the military district of Washington. There were 
three major departments--Department of Justice, Department of 
the Interior, and Department of Defense--all involved.
    There were National Guard troops from 11 different States, 
and the chain of command for those National Guard troops ran 
from the President to the Secretary of Defense to the Secretary 
of the Army to Major General Walker, and it never changed.
    Since the protests began, I sought information to help me 
assess the ability of Federal, State, and local authorities to 
handle situations under their responsibility and I met and 
spoke with National Guard leadership and troops often, Army and 
DOD leadership, Department of Justice and others, along with 
Governors and DC officials.
    I continually assessed and advised that it was not 
necessary to employ Active Duty troops in response to the civil 
unrest occurring in our Nation.
    It was my view then and remains so now that local, State, 
and Federal police, backed up by the National Guard under 
Governor control, could and continually can effectively handle 
the security situation in every case across the country.
    However, I recommended to the Secretary of Defense and he 
ordered about 1,700 Active Duty troops to an increased alert 
posture in the vicinity of Washington, DC, but none of them 
were ever used and there was never an Active Duty troop used in 
any location anywhere in the United States.
    Additionally, I repeatedly advised the Secretary of Defense 
and he repeatedly ordered de-escalation measures to be taken, 
including removing weapons and helmets and consistent with 
force protection measures.
    These de-escalation measures were widely implemented from 2 
to 3 June, and by 4 June Active Duty and National Guard units 
began redeploying in the vicinity of Washington, DC, back to 
their home station. A more detailed account is in the written 
record.
    I am incredibly proud of the professionalism exhibited by 
the citizen soldiers that make up our National Guard. Since 
their formation, they have operated in support of local and 
State governments throughout history, responding to hurricanes, 
forest fires, health crises, COVID-19, the pandemic, and many 
forms of civil unrest throughout the years.
    By my research, I count at least 19 times that National 
Guard and militia troops were used in support of the 
Insurrection Act and it is important to note the Insurrection 
Act was not invoked in the last several weeks.
    The United States military comes from the people of our 
Nation and we remain dedicated to the Constitution. We will 
never turn our back on that document. We swore an oath of 
allegiance at the cost of our lives to an idea embedded within 
that document and we will always protect it.
    Thank you very much, and I look forward to your questions.
    [The prepared statement of General Milley can be found in 
the Appendix on page 86.]
    The Chairman. Thank you.
    Members will now be recognized in the order that they were 
here when the gavel dropped. There is a 5-minute limit and we 
will have--we won't have enough time to get to every member so 
I am going to be ruthless on the 5-minute clock, and one of the 
hardest problems there is a lot of times witnesses are in the 
middle of an answer when that 5-minute clock goes up.
    I am not attempting to be rude or attempting to cut you 
off. I will try to give you the opportunity to complete your 
thought. But as members ask questions and witnesses answer, 
understand when the 5 minutes is up we are going to do our 
level best to as quickly as possible move on to the next 
member.
    And with that, first on our side is Representative Davis, 
who is participating remotely.
    Representative Davis, you are recognized for 5 minutes.
    Mrs. Davis. Thank you very much, Mr. Chairman, and thank 
you to Secretary Esper and General Milley. We appreciate your 
joining us for this.
    I wanted to start with you, Mr. Secretary. You mentioned 
the after-action review on July 30th. Is that on course for the 
end of the month and will we be scheduling a briefing on that?
    Secretary Esper. Congresswoman, I am not sure I heard--
parts of your question didn't come through. But I think you 
asked is the--is the after-action review on track and will you 
be briefed on it.
    If that was your question, I spoke to Secretary McCarthy 
just yesterday. As you may know, he played a very prominent 
role in all this.
    I know he briefed the committee a few weeks ago, along with 
General Walker. But he is handling that piece of the review. 
His assessment, currently, it is on track.
    I am, though, however, more concerned about getting it 
right than getting it done quick. But my aim would be after 
that to make that available to you.
    Also something that I put forth in my directive to him was 
to be prepared to take his findings and recommendations and to 
have a similar conversation, a similar type of review process, 
with law enforcement that was on the ground in DC because I 
think that is a very important second step in that process to 
have that discussion so that we can have lessons learned----
    Mrs. Davis. Yes. Thank you.
    Secretary Esper [continuing]. And work them out between us 
and law enforcement for the--if this happens again.
    Mrs. Davis. Thank you, Mr. Secretary. I know we are all 
concerned about being prepared, and I wanted to especially 
focus on the 1st of June because that was a time that there was 
concern that there was a great deal of violence that day and 
the understanding, I think, of most people that were on the 
ground in terms of--including the reporting of the Washington 
Post and others is that that particular day actually it was 
peaceful.
    And there may have been a few incidents. I don't know. I 
wasn't there. But I understand from all the reporting that that 
was the case, and that they--in fact, the Park Police, as you 
mentioned, was there. You talked--General Milley talked about 
the Guard being there as backup.
    But we saw Attorney General Bill Barr actually talking 
about the fact that it was--that it was violent and that they 
needed to move forward because the--they were very worried of 
things coming out of control.
    And I just wondered if do you--from where you sit today, do 
you think that that assessment, that in fact it was violent on 
that day and that there was a need to even have the Guard as 
backup?
    Is that true? Do you think that in further reflection that 
isn't quite what people thought?
    Secretary Esper. Congresswoman, I think when you look back 
at the days leading up to June 1st you see a tremendous amount 
of violence that had been building up over a period of days.
    If I had my numbers right, that over a period of 3 days I 
think eventually, regrettably, over 50 Park Police officers 
were injured. Over 60 Secret Service agents were injured.
    We had six National Guardsmen hurt to include one who was 
hit in the head with a brick and suffered a concussion. You had 
parts of DC to include the church set on fire, and other acts 
of vandalism across the area.
    So there was a great deal of consternation by law 
enforcement with regard to what might happen that evening of 
June 1st.
    I think that is why there was the push to get additional 
law enforcement in as soon as possible, backed up by National 
Guard, so that you had enough presence to calm the situation 
down, regain some degree of control, and allow for Americans to 
peacefully protest their government to express their outrage 
over the brutal murder of George Floyd and to allow those 
things to happen free of violence from those individuals, those 
folks out there who were trying to cause mischief.
    So that's my assessment. The Chairman may have something to 
add on that.
    Mrs. Davis. Thank you.
    Well, I think I was just going to say, Secretary, I think 
that this certainly is an area to take a very hard look at and 
to be certain that it is clear among the departments, because 
even when we ask those questions when we had Army leadership 
here, they actually were not clear about what was going on.
    They had situational awareness but they didn't know who 
ordered the clearing of protestors and who authorized the 
helicopters to use----
    The Chairman. I am sorry. The gentlelady's--your time is 
expired.
    Mrs. Davis. Thank you.
    The Chairman. Mr. Turner is recognized for 5 minutes.
    Mr. Turner. Thank you, Mr. Chairman.
    First off, I want to thank Secretary Esper and General 
Milley for your leadership. You give great confidence to 
everyone on this committee on both sides of the aisle.
    I want to appreciate your strong words, both of you, on the 
killing of George Floyd and the fact that your whole focus as 
protecting people's First Amendment rights is incredibly 
important and should be foundational and important to this 
discussion.
    I appreciate your recognition of the outrage everyone felt, 
and I appreciate your condemnation of racism and the fact that 
we are dealing with this as a nation across all areas and you 
are being called in a very difficult time.
    Mr. Secretary, I appreciate your statements on diversity 
and inclusion. This committee took several actions with the 
National Defense Authorization Act that I think will be helpful 
and we look forward to your comments on those.
    You made a statement. I have three questions and we have 
limited time. I have three questions.
    One, you said that the Guard is best to support these 
efforts. Is it because of their dual nature of the fact that 
they are both private citizens and serve in the military?
    Secretary Esper. I think--first of all, Congressman, thank 
you for your comments. First of all, I think that, one, they 
are citizen-soldiers and that matters because they often come 
from those communities in which they may be serving.
    They are protecting their fellow Americans. They understand 
what is happening in the neighborhoods, in the communities. So 
I think that is important.
    Number two, they are trained, in many cases, to do civil 
disturbance, and number three, they are equipped to do this. So 
it is part of what we call their mission essential task list, 
their METL tasks, in most cases to perform these duties and, 
again, having been a citizen-soldier myself I appreciate their 
capacity at this, which is better in many cases than the Active 
Duty.
    Mr. Turner. Mr. Secretary, I have a question for you that I 
believe it has the narrowness of--which is going to be helpful 
for all of us so I would appreciate if you would let me finish 
the entire question so we can get to the narrowness part that I 
think will give you comfort.
    I understand the rules with respect to classified material 
and I also understand that things that haven't happened are not 
classified.
    Mr. Secretary, during your time as Secretary, have you ever 
received an intelligence briefing where it stated that Russia 
had offered bounties for the killing of American soldiers, and 
if you had wouldn't you think that was important enough to 
bring to the attention of the President?
    And I am focusing here on the narrowness of the word 
``bounties'' and I want you to know also that the people in 
this room know the answer to the question. We are not able to 
give the answer because of the rules.
    But you are, and I think with the narrowness of this 
question we would greatly appreciate your answering it.
    Have you received an intel briefing that stated--that 
included the word ``bounty'' with respect to Russians and 
killing of American men and women in uniform?
    Secretary Esper. Congressman, to the best of my 
recollection, I have not received a briefing that included the 
word ``bounty.''
    Mr. Turner. Mr. Secretary, I really appreciate you saying 
that. Now, my next question then is and if you had wouldn't 
that have risen to the level of importance enough for you to 
bring it to the President's attention?
    That would be an action item, wouldn't it? I mean, it would 
be so outrageous that you would bring that up the chain of 
command.
    Secretary Esper. If it was a credible report--that is 
important--a credible corroborated report that had--that used 
those words, certainly, it would have been brought to my 
attention by the chain of command, by the Chairman of the Joint 
Chiefs and others for action.
    It would have been--and we would have taken upon that 
action in an interagency effort to make sure that we got--we 
addressed it.
    But, look, at all times we take force protection very 
seriously and take all those actions regardless of the 
credibility of a report. We take all that seriously.
    Mr. Turner. I understand.
    Turning back to this issue, Mr. Secretary, the mayor of DC 
has a police chief. Governors have access to other resources 
with respect to the Guard.
    Could you compare and contrast those with us? Because it is 
important for people to understand when people talk about the 
mayor of DC being consulted versus a Governor being consulted 
what their structures are.
    Secretary Esper. So, first of all, I want to commend the 
police chief of Metro Police Department. He worked very well 
and was very helpful to the Secretary of the Army during those 
difficult days. So I want to commend him.
    But as I understand it, he is the police force for 
Washington, DC. Washington, DC, does not have a State police 
force like many other States have that they can call upon if 
they will and, of course, the DC Guard does not report to the 
mayor.
    The DC Guard--the commander is the Commander in Chief, the 
President, who can delegate that authority to me and then I can 
further delegate it down.
    So the capabilities of the DC to handle civil unrest is 
limited as best I know it to just the Metro Police Department.
    Mr. Turner. Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Mr. Larsen is recognized for 5 minutes.
    Mr. Larsen. Thank you, Mr. Chairman. Appreciate the 
opportunity to ask a few questions.
    First off, for Secretary Esper, and this has to do with the 
after-action report and the coordination question. Would you 
see National Guard leadership in response to the DC protest, 
the DC National Guard leadership as the only agency that runs 
through the chain of command and up to you? Is that correct?
    Secretary Esper. Yes. The DC chain of command, National 
Guard chain of command, runs from the commanding general, Major 
General Walker, to the Secretary of the Army, to me, and then 
to the President of the United States.
    Mr. Larsen. And that was the only agency unit involved that 
ran through the chain of command of the Department. Is that 
right?
    Secretary Esper. I am sorry. Can you repeat that? I didn't 
pick up the second word that you said.
    Mr. Larsen. I am sorry. That is the only--that is the only 
agency that ran up through the DOD chain of command in response 
to the DC protest. Is that right?
    Secretary Esper. Yes, that would be outside of any Active 
Duty, that is correct, with regard to title 32. Otherwise, all 
other National Guard forces either in their home States or that 
eventually deployed to Washington, DC, remained under the 
command of the State's Governors.
    And General Walker's role was----
    Mr. Larsen. Okay. That is fine.
    Secretary Esper [continuing]. Tactical control on the 
ground.
    Mr. Larsen. Yes. So there is video of nonuniformed Federal 
Government folks who were deployed to Washington, DC, 
presumably from the Bureau of Prisons and presumably at the 
request of the attorney general.
    You mentioned that you were doing an after-action report 
and that after-action report will apply only at this point to 
the Department of Defense and the DC National Guard.
    Is that where it stands right now?
    Secretary Esper. Yes, Congressman. The note I sent to the 
Secretary of the Army was to look at the National Guard writ 
large.
    It directed him to focus also on the events in DC and then, 
of course, related issues that arose like the use of 
helicopters and he is to look at training, equipping, 
organization, all those issues that might be--his findings that 
might include refining some lessons learned for future--for 
future employment of the National Guard.
    Mr. Larsen. Thank you.
    Do you know at this time whether or not the head of the DC 
National Guard was aware of the deployment of these 
nonuniformed presumably Federal law enforcement folks that 
created a perimeter around the White House I think on June 3d? 
Was that coordinated? Have you concluded that that was 
coordinated yet with the DC National Guard?
    Secretary Esper. Well, again, I am not sure I understand 
your question. Let me answer it this way.
    The Chairman and I spoke to Major General Walker yesterday. 
He had--he had an understanding of who was on the ground in 
Lafayette Park. He was there. He knew that the DC National 
Guard were in a supporting role to the Park Police. I----
    Mr. Larsen. Okay. Can I stop there--can I stop you there? 
You are talking about Lafayette Park and that is fine. But 
there were other law enforcement deployed who were apparently 
non-local non-DC.
    They were Federal law enforcement also deployed to take 
actions within DC, within the boundaries of the District of 
Columbia. I am asking if that--those--do you know yet whether 
or not those actions were coordinated with the DC National 
Guard or not?
    Secretary Esper. My understanding is because I was with the 
Secretary of the Army McCarthy, the Chairman, we were down at 
the FBI [Federal Bureau of Investigation] Joint Operations 
Center on Monday evening with representatives from a number of 
agencies.
    I can't list them all, the Federal--as you describe them. 
So I know it was fairly well coordinated. Secretary McCarthy 
did an outstanding job with regard to working that out on the 
spot and Major General Walker was by his side most of the time.
    I will turn to Chairman Milley to see if he has anything to 
add on that.
    Mr. Larsen. I have got about 30 seconds.
    General Milley. So, Congressman, I would--I can't confirm 
or deny that all of those Federal law enforcement agencies were 
tied into the DC National Guard. Personally, you know, for 
Walker I would have to go talk to Walker specifically about 
that.
    But all of the Federal agencies came underneath the 
Department of Justice except for the Park Police, who are under 
the Department of Interior, and the Metro Police remained under 
the command and control of the mayor.
    The Chairman. Thank you.
    General Milley. So I don't know if that helps clarify or 
not but----
    Mr. Larsen. Thank you. A little bit.
    Thank you. Thank you, Mr. Chairman.
    The Chairman. Yes, that does help. That is a major question 
that we have.
    Mr. Rogers is recognized for 5 minutes.
    Mr. Rogers. Thank you, Mr. Chairman; and Mr. Secretary, Mr. 
Chairman, thank you both for being here and for your service to 
our country.
    Mr. Secretary, in early June you requested members of the 
National Guard under section 502(f) of title 32. You made some 
reference to this, but can you give us a more full picture of 
what the command and control structure under that authority is 
and kind of give us an organizational structure?
    Secretary Esper. Are you speaking, I assume, within 
Washington, DC?
    Mr. Rogers. Within Washington, DC. Yes, sir. I am sorry.
    Secretary Esper. So you are right. On the afternoon of 1 
June, the--we knew we would have available throughout that 
evening up to 1,200 DC National Guard. As we just described, 
they work for Major General Walker, who was reporting to 
Secretary of the Army McCarthy, who was reporting to me.
    We estimated that we needed 3,800 additional National Guard 
to support the efforts in DC. So what we did was through a 
combination of myself and General Lengyel had reached out to a 
number of States to seek the permission from the Governor to 
deploy elements of their Guard to DC to support the law 
enforcement effort.
    Eleven States, if my number is correct, provided that and 
it got us to a little bit over 5,000 on the ground. It took a 
period of days to do that. But that gave us the numbers we 
needed at all times.
    The outside--the Guard units coming in from outside of DC, 
non-DC National Guard, were under 502(f) authorities provided--
funded by the Federal Government. Their role is to protect 
Federal functions, property, and personnel and at all times 
they remained under the control of their Governors.
    Mr. Rogers. I want to shift a little bit.
    Mr. Chairman, in your opening remarks you made reference to 
the fact that 60,000 service members have been employed dealing 
with a variety of issues, mostly COVID but some other law 
enforcement and I know it is mostly National Guard.
    And this is kind of a follow-up to Mr. Thornberry's 
questions. How are they holding up? With all this variety of 
missions that has been foisted at--47,000 of those are National 
Guardsmen that have been working in COVID.
    What is the state of the National Guard right now, given 
the way they are being spread out? And then as a follow-up to 
that, the economic impact to your budgets and what we are going 
to need to backfill.
    General Milley. So the numbers--you got the numbers about 
right. For the National Guard globally, about 120,000 are on 
duty--on Active Duty. About 45,000, I think, if I remember this 
right from my briefing with Joe Lengyel, about 45,000 are 
dedicated to COVID.
    At the peak--not right this minute but at the peak there 
were around 40,000 to 43,000 on the civil unrest under Governor 
control, and then there is about 30,000 doing title 10 missions 
around the world or in the United States.
    So about 120,000 total, which is significant. That is a big 
chunk of the U.S. National Guard, both Army and Air.
    The reports to me are morale is good. They feel good about 
their contribution and they joined the Guard to make sure that 
they make a contribution to the Nation. So I am not 
particularly aware of any particular issues. But they are going 
pretty fast at a high OPTEMPO [operations tempo], probably 
faster than they have in the past except during the surge 
periods of Iraq and Afghanistan.
    Mr. Rogers. What about the economic impact to your budgets 
of having these individuals deployed in these various missions 
that were unplanned?
    General Milley. There is an economic impact. I don't know 
that it is--it is not going to--I don't think it is going to 
break the DOD back on the economic impact because of the 
numbers. But there is an impact, absolutely.
    Mr. Rogers. So you don't expect to be asking the Congress 
for additional money to replace that or backfill that money in 
a supplemental later this year?
    General Milley. I will leave that up to the Secretary.
    Secretary Esper. We have been keeping careful accounting of 
the dollars through the comptroller. That is, obviously, 
something we need to come back to and to make sure we 
understand what those numbers are and how material they are to 
the budget.
    Mr. Rogers. And finally, Mr. Secretary, do you believe that 
the Insurrection Act needs any legislative modification by this 
Congress?
    Secretary Esper. Well, the Insurrection Act is an 
extraordinary piece of legislation, as we know, has endured 
well over the past couple hundred years and it is under the 
exclusive authority of the President.
    So it would not be appropriate for me to opine in terms of 
material changes to the act. I would reserve that to the 
President.
    My view is there is nothing that has happened that strikes 
me as compelling to change it at this point in time.
    Mr. Rogers. Great. Thank you both for being here.
    I yield back, Mr. Chairman.
    The Chairman. Thank you.
    Mr. Courtney is recognized for 5 minutes.
    Mr. Courtney. Thank you, Adam, and thank you to the 
witnesses for being here today. Particularly, I want to 
recognize both of you made very strong comments expressing, you 
know, your--upholding your oath in terms of supporting the 
First Amendment and people's right to protest peacefully.
    Of course, another part of the First Amendment is freedom 
of the press, and freedom of the press did not have a very good 
day on June 1st a couple days ago over at the Natural Resources 
Committee. A reporter from Australia, Amelia Brace, who was a 
TV news reporter, was at Lafayette Park with her cameraman, Tim 
Myers, when the U.S. Park Police, two of the officers, just 
completely assaulted them on live television.
    She was actually broadcasting into The Morning Show in 
Australia. It is kind of the equivalent of the Today Show, and 
I don't know if it is still coming through here but in any 
case, her testimony described, again, the riot shield of the 
Park Police being rammed into the chest and stomach of the 
cameraman and on camera you could see her getting hit with a 
truncheon. She was shot with rubber bullets and both of them 
were hospitalized.
    But, again, I just wanted to maybe give you both an 
opportunity to just go on the record to say that, you know, we, 
obviously, as part of recognizing the First Amendment, 
recognize that the media has a role to play that is protected 
by the Constitution. In fact, the curfew order that the mayor 
issued exempted the media from the curfew that was in place on 
June 1st.
    And I just wanted--again, would ask both of you to comment 
on that because, frankly, this was on live television in 
Australia, who is probably one of our closest allies.
    Secretary Esper. Congressman, I will go first.
    You are right, Australia is one of our most important 
allies. I spent the other night, as the chairman knows, 
speaking with my counterpart in Australia.
    Let me say this. We have said it numerous times. I swore an 
oath to uphold and defend the Constitution of the United States 
and I do that not just because I swore an oath but because I 
believe deeply in that document and all that it guarantees, our 
rights and democracy.
    And you have talked about the First Amendment. That 
includes the big five and one of which is the freedom of the 
press, and I think a free and open press is critical to the 
functioning--the efficient functioning, you know, of our 
democracy.
    And so I think that is something that we need--we cherish. 
That is one of the reasons why, you know, the National Guard, 
when it gets used in defense of support of civil authorities is 
out there is to give Americans the right to peacefully 
assemble, to express their views and for the press to cover it, 
hopefully, as accurately as possible so that the American 
people can--have an understanding of what is happening in the 
country.
    General Milley. And, Congressman, I am not familiar with 
the particular incident that you are referring to. But I am 
deeply committed to a free press.
    Like I said, I will die for the Constitution. It is an 
idea, and part of that is the free media, and a free media is 
fundamentally essential to a free people as fundamental to our 
democracy.
    So, absolutely, I am committed to that.
    Mr. Courtney. Well, thank you both again. This was front 
page news in Australia and I would just say that it was the 
Park Police. It was not National Guardsmen who were involved in 
that violence that took place there.
    But the fact is, as the Secretary's testimony indicates, 
the DC National Guard was acting in support of local police 
authorities, including the Park Police.
    And I think, frankly, whatever after-action report goes 
out, the fact that media are present in situations where they 
have a legal duty--not just a right but a duty to be there, 
which was recognized by the District of Columbia, that really 
there has got to be some training to make sure that people 
recognize that it is off limits to treat them in any way that 
is inappropriate, which is exactly what happened.
    And I would encourage you to watch the testimony which took 
place from Ms. Brace. It is actually quite shocking and, 
frankly, particularly the fact that it happened to an ally of 
ours it will make you heartsick to watch it.
    With that, I yield back.
    The Chairman. Thank you.
    Mr. Conaway is recognized for 5 minutes.
    Mr. Conaway. Thank you, Mr. Chair. I will yield my time to 
the next Republican on the list.
    The Chairman. Mr. Lamborn.
    Mr. Lamborn, are you with us?
    [No response.]
    The Chairman. Ms. Stefanik.
    Ms. Stefanik. Thank you, Mr. Chairman, and thank you, 
gentlemen, for your service.
    I wanted to focus on an issue of importance to constituents 
in my district. I have had the privilege of hosting both of 
you, Secretary Esper, in your capacity when you were Secretary 
of the Army, as well as General Milley. I have spent time with 
you at Fort Drum.
    And given some of the recent press reports regarding 
Afghanistan, as you know, I represent military families and 
10th Mountain Division soldiers who are currently deployed in 
Afghanistan.
    And I wanted to get your comments, General Milley, on your 
commitment and the Department's commitment to force protection 
at all costs.
    That is one of my top priorities, whether it is rebuilding 
military readiness, investing in training, investing in 
equipment, and having the most exquisite exceptional 
intelligence that is verified out there.
    But I think it is important for families to know the 
lengths to which the Department goes to ensure that we are 
protecting the safety and well being of our service members 
deployed.
    I will start with you, General Milley.
    General Milley. You have a 1,000 percent commitment. I have 
got three tours in Afghanistan and multiple tours in a lot of 
other places, and I have buried a lot of people in Arlington 
National Cemetery.
    So I am committed to the nth degree to protect our force 
and we will ensure that they have all the right equipment, 
training, alerts, warnings, intel, et cetera.
    I know what you are referring to specifically with the 
Russians, and I will tell you that we are at the highest levels 
of force protection. Units and people are and were informed and 
will remain informed.
    We are going to get to the bottom of all that but I can 
assure the families that the force protection of our force, not 
only for me but for every commander all the way down the line. 
That's the number one priority for every one of us, absolutely.
    Ms. Stefanik. Thank you.
    Secretary Esper.
    Secretary Esper. I 1,000 percent agree as well. I say it 
again as a former soldier myself with one combat tour under my 
belt.
    This is something we talk with--I talk about with the 
commanders all the time, with General Miller and General 
McKenzie on multiple occasions. We make adjustments all the 
time across the theater and other theaters. But force 
protection is number one to take care of our soldiers, sailors, 
airmen, and Marines. They are our most vital resource, our most 
trusted asset, and we will do everything and anything it takes 
to protect them.
    Ms. Stefanik. My next question, and just so you know, I sit 
on the House Intelligence Committee so I have received the 
classified briefings, understanding we are in an unclassified 
setting right now.
    I also think it is important to talk about how we know, 
going years back, that Russia has meddled in Afghanistan as 
well as other countries have also involved themselves in 
Afghanistan counter to our commitments and our strategic goals 
in the region, whether that is Iran, whether that is China, 
using economic tools.
    So I wanted to get your comment on that because I think it 
is important to consider that long-term impact rather than just 
this one illegal leak that has been covered in the media.
    General Milley. Well, on the--specific to the Russians, 
yes, we have known for years that the Russians have been 
involved for their own national security interests and in 
Afghanistan, and the Russians are not our friends and their 
involvement is worrisome and we monitor it closely and we take 
the appropriate actions.
    The Chinese are involved. The Pakistanis are involved. The 
Iranians are. There are a lot of countries involved in 
Afghanistan, and many of them have malfeasance aforethought 
against the U.S. and U.S. forces, et cetera.
    We are aware of a lot of that. Not perhaps every single 
thing, but we are aware of a lot of it and we take the 
appropriate measures. And with respect to the issue and was 
previously asked by one of the other Congressmen, we are aware 
of the variety of intelligence that you were briefed on this 
morning, and we are pursuing that.
    Ms. Stefanik. Secretary Esper, any comments on that?
    Secretary Esper. I share the same views as the Chairman. 
The Russians have been involved, and many, many other countries 
and many other players--you know, nonstate players--in 
Afghanistan for a long time, and we take all that into account, 
and I can tell you on other occasions we have adapted force 
posture.
    We have adapted authorities, equipment, you name it, rules 
of engagement to make sure that our forces were well protected 
and able to accomplish their mission.
    Ms. Stefanik. And then my last question, can you discuss 
the damage that illegal leaks have on our ability to collect 
intelligence, on our force protection measures? Because I am 
very concerned the damage that illegal leaks have in general 
when it comes to our national security.
    Secretary Esper. I am conscious of the clock. The illegal 
leaks are terrible. They are happening across the government, 
particularly in the Defense Department.
    I am pushing for it on the new effort to remind people of 
OPSEC [operations security] whether it is predecisional, 
unclassified items or even classified items, it hurts our 
national security. It jeopardizes our troops, and it is just 
damaging to our government and our relationships with our 
allies and partners.
    Ms. Stefanik. Thank you. I yield back.
    The Chairman. Thank you. Mr. Garamendi is recognized for 5 
minutes. Mr. Garamendi, are you with us? Make sure you unmute 
yourself.
    [No response.]
    The Chairman. I don't see him actually. So we will move on 
to Mr. Norcross. Mr. Norcross, are you with us?
    Mr. Norcross. Yes, I am. Thank you, Chairman. Secretary 
Esper, in your opening remarks you mentioned that the National 
Guard did not play an active role or advancing on the crowd, 
did not use rubber bullets, paraphrasing that, and used the 
term ``static role.''
    I would like to focus on that and the events of June 1st 
involving the Army National Guard helicopter.
    How would you refer to that as a static role? And I have a 
follow-up when we're finished.
    Secretary Esper. Congressman, I was referring to the static 
role with regard to the actions of the National Guard in 
Lafayette Park on June 1st. The helicopter issues in question 
that you are raising happened later that evening, I think maybe 
around 11:00 p.m. or so. I don't recall the times.
    So obviously that was different. That was not a static 
role. I was talking about the forces on the ground in Lafayette 
Park.
    Mr. Norcross. Thank you for clarifying that. When Secretary 
McCarthy was with us earlier this month, he mentioned that the 
report on the investigation was going to be very soon. We 
understand that you might be finished now. When is that going 
to be released to us and to the public?
    Secretary Esper. So Congressman, I spoke to Secretary 
McCarthy about this. As you know, I launched this investigation 
within 2 hours of finding out about it, I think on June 2nd, if 
memory serves me.
    The investigation was conducted. It is completed. It is 
being reviewed by Secretary McCarthy. I think if--I am looking 
at Chairman Milley--DOD IG [Inspector General] may take a look 
at it. But it should be available next week to the committee. 
That is my--the latest report I got from the Secretary of the 
Army. Chairman, is that correct?
    General Milley. That is correct. The IG--DOD IG has to do 
their review. So I would expect it pretty shortly, like, within 
days, perhaps early next week.
    Mr. Norcross. Thank you, and I yield the balance of my time 
to Mikie Sherrill of New Jersey.
    The Chairman. Yes, that gets awkward. Pause the clock for a 
second. Mikie, do you wish to take the time? If you do, you got 
to come forward. Beg your pardon? Oh, she's here.
    Michelle, you are recognized for the remainder of the time, 
a few minutes and 40 seconds.
    Mr. Norcross. Thank you.
    [Pause.]
    Ms. Sherrill. Secretary Esper and General Milley, I echo 
the chairman's concern about politicizing our military, and 
given the attempts at politicizing our military in the 
unorthodox way the President attempted to control troops in our 
Nation's capital, I want to discuss some of the legal 
underpinnings of civilian control.
    Because I have such a short period of time, I am looking 
for a yes or no. If you don't know the answer, please just let 
me know you will take it for action. Secretary Esper and 
General Milley, you both testified that you have taken oaths to 
the Constitution of the United States. Is that correct?
    Secretary Esper. Yes.
    Ms. Sherrill. And that oath includes an oath to support and 
defend the Constitution of the United States against all 
enemies, foreign and domestic, and bear true faith and 
allegiance to the same, correct?
    General Milley. Yes.
    Secretary Esper. Yes.
    Ms. Sherrill. And are you both aware that Article 2 of the 
Constitution states that the executive power shall be vested in 
a President--in other words, one or a single President?
    General Milley. Yes.
    Secretary Esper. Yes.
    Ms. Sherrill. And are you both aware that Article 2 of our 
Constitution makes the President the Commander in Chief of the 
Army and Navy of the United States?
    General Milley. Yes.
    Secretary Esper. Yes.
    Ms. Sherrill. And Secretary Esper, are you aware that the 
President's power to remove from office Cabinet officials from 
key national security positions, including the Secretary of 
Defense, is undisputed?
    Secretary Esper. I am sorry. Can you repeat that?
    Ms. Sherrill. Certainly. Are you aware that the President's 
power to remove from office key Cabinet officials, especially 
in national security positions including the Secretary of 
Defense, is undisputed?
    Secretary Esper. Yes.
    Ms. Sherrill. And General Milley, are you aware that the 
Uniform Code of Military Justice, which applies to all 
uniformed officers, criminalizes mutiny and sedition and 
soliciting or advising on the commission of mutiny or sedition?
    General Milley. Absolutely. Yes.
    Ms. Sherrill. And Secretary Esper, are you aware of the 
fundamental proposition that the Secretary of Defense is 
selected by the legitimate President?
    Secretary Esper. Yes, and confirmed by the Senate.
    Ms. Sherrill. And that the legitimate Commander in Chief is 
the one who oversees the chain of command, correct?
    General Milley. Yes.
    Secretary Esper. Yes.
    Ms. Sherrill. So finally, the Insurrection Act states that 
whenever the President considers that unlawful obstructions, 
combinations, or assemblages or rebellion against the authority 
of the United States makes it impracticable to enforce the laws 
of the United States in any State by the ordinary course of 
judicial proceedings, he may call into Federal service such of 
the militia of any State and use such of the Armed Forces as he 
considers necessary to enforce those laws or to suppress 
rebellion, yes?
    General Milley. Yes.
    The Chairman. And unfortunately, the gentlelady is out of 
time. Mr. DesJarlais, I do not see you on the screen. You are 
next.
    Okay. We will go on to Mr. Gaetz. Mr. Gaetz, you are 
recognized for 5 minutes if you are, in fact, with us.
    [No response.]
    The Chairman. Mr. Bacon, you are usually pretty good at 
this. Mr. Bacon, are you on the stand?
    Mr. Bacon. Thank you, Mr. Chairman. I appreciate both our 
Secretary of Defense and our Chairman for your leadership and 
have the utmost respect for you all.
    I wanted to just ask, if you can say it, the report on the 
bounties, did it originate from an intelligence agency within 
the military, like the DIA [Defense Intelligence Agency], or is 
this from outside of the military?
    Secretary Esper. I am sorry, Congressman. I didn't hear the 
question. Did you ask if----
    Mr. Bacon. The intelligence report that talks about the 
Russian bounties in Afghanistan, did that come from outside of 
the DOD, like CIA [Central Intelligence Agency] or NSA 
[National Security Agency], or was this like DIA or did it come 
from a military intelligence agency?
    Secretary Esper. It was not produced by a DOD intelligence 
agency.
    Mr. Bacon. Okay. I thank you for that. I just--because I go 
back to what Ms. Stefanik said. These leaks I think undermine 
our intelligence communities, and it just undermines the 
confidence of the citizens either of the President in this case 
or depending on what side of the aisle you're on or where you 
stand to our intelligence organizations themselves.
    And how active are you in pursuing similar type leaks 
within DOD? Because I think it is imperative that we start 
holding people accountable to the maximum extent the law 
allows. So I would be just curious for your insights on this. 
Thank you.
    Secretary Esper. Congressman, we are aggressively pursuing 
leaks within the Defense Department. We had some I would 
characterize as bad leaks last fall. So when I--when we turned 
the corner of the new year, I made--emphasized on day one of 
the new year of 2020 that OPSEC was going to be a key thing for 
us to focus on. Leaks continued.
    I have launched an investigation that is underway to go 
after leaks, whether it is of classified information or 
unclassified information that is sensitive, and also, you know, 
unauthorized discussions with the media.
    All those things, again, hurt our Nation's security. They 
undermine our troops, their safety. They affect our relations 
with other countries. They undermine our national policy.
    It is bad, and it is happening all over the government--
executive branch, legislative branch to some degree. So it is 
something we need to get control of, and this is not new to 
this administration.
    Previous administrations, Republican and Democrat alike, 
have had to deal with this and it is just--it is bad and it is 
unlawful and it needs to stop.
    Mr. Bacon. Mr. Secretary, I appreciate your comments there.
    I also liked your comments a couple days ago. I appreciated 
your transparency, I should say, on the report itself. You said 
that it was not corroborated, that you didn't have the level of 
confidence perhaps that the President would get the briefing. 
Is that still your opinion?
    Secretary Esper. It is the opinion of a number of 
intelligence entities, agencies, that could not corroborate the 
report.
    Mr. Bacon. Okay. Thank you. I am going switch subjects or 
topics on you, briefly. Could you just go through--maybe this 
is more for the Chairman--what kind of training the Guard gets 
when it comes to supporting law enforcement. Is it universal to 
all the Guard members, or is it to certain specialties? How 
does that work? Thank you.
    General Milley. Great question. The National Guard, as the 
Secretary said up front, you know, really, we are talking about 
Air Force, police, and the Army National Guard. It is part of 
their mission essential task list.
    Most of the ground units will be trained explicitly in 
civil disturbance in support of law enforcement. Those would be 
infantry units, but primarily military police, and the DC Guard 
explicitly is trained in that. In addition to that, you get 
refresher training throughout the year and throughout their 
weekend drills, et cetera.
    So they are trained. Not every single guardsman, not every 
single unit, but the ground force units that are most likely to 
work in the civil disturbance area or in support of law 
enforcement are trained.
    Mr. Bacon. Okay. Thank you, Mr. Chairman. I will just close 
with just a comment. I appreciate the teamwork that the Guard 
gave the DC authorities and also the other 30-some-odd cities 
that they were a part of.
    And what I heard from our local constituencies, how 
appalled they are that, you know, that church was burnt, you 
know, firebombed, and the AFL-CIO [American Federation of 
Labor-Congress of Industrial Organizations] was torched. Many 
of the memorials were defaced, and it was--action was needed to 
be taken, and restoring law and order.
    So I just--I appreciate what the Guard did to support law 
enforcement, and with that, Mr. Chairman, I yield back.
    The Chairman. Thank you. Mr. Gallego is recognized for 5 
minutes.
    Mr. Gallego. Thank you. Secretary Esper or General Milley, 
can you explain to us the actual command structure that--how it 
was set up? You know, we had the National Guard working with 
local police as well as Park Police.
    So how did that happen? Where were--how was the 
communications between all parties involved and who was 
actually in actual command and control of that area, of 
Lafayette Square, let's say?
    Secretary Esper. Yes, it is a very good question, 
Congressman. It is a very--it is not clear. You understand 
change of command----
    Mr. Gallego. Yes. Yes.
    Secretary Esper [continuing]. From your service. So it 
defies that in many ways. So I will just speak to National 
Guard under title 32 for DC.
    I already explained, the President, to me, to the Secretary 
of the Army, to the head of--Major General Walker in support of 
law enforcement, and law enforcement was both the Department of 
Justice agencies, entities, and Department of Interior, 
specifically Park Police.
    Mr. Gallego. Okay.
    Secretary Esper. That relationship is more of a cooperative 
one. It is not something that you and I and others who serve 
would understand as OPCON [operational control] or tactical 
control. It is more of a cooperative relationship where law 
enforcement would say look, you would help us if you were here, 
here, and here----
    Mr. Gallego. Right.
    Secretary Esper [continuing]. And then we would agree or 
not agree to do that. But it was a very good relationship that 
made that work out.
    Mr. Gallego. Okay. And----
    Secretary Esper [continuing]. And of course, any Guard 
units coming into the city----
    Mr. Gallego. Right.
    Secretary Esper [continuing]. Remained under the control of 
the Governors, but also reported to General Walker but more, 
again, on a cooperative--I will call it ``cooperative con''----
    Mr. Gallego. Right.
    Secretary Esper [continuing]. Than a traditional military 
relationship.
    Mr. Gallego. So that being said, the deployment of the 
National Guard in front of Lafayette Square the day of the 
incident on June 1st there was an agreement between--Chairman 
Milley, maybe you could answer this--at some point there was a 
discussion that the National Guard should stay here in a static 
position and on this day. So there was a conversation. Who was 
that conversation between?
    General Milley. I am not sure specifically who, but I think 
it was probably Secretary McCarthy and General Walker, and the 
Department of Justice, perhaps Attorney General Barr or----
    Mr. Gallego. Okay.
    Chairman Milley [continuing]. Representatives--or the 
representatives of the Department of Interior and the Park 
Police, perhaps Park Police captain. I am not sure of the 
specific individuals. I can find that out though and get back 
to you.
    Mr. Gallego. Yes, I would appreciate it. And then how--what 
was the method of communication? Because we are dealing across 
agencies. Were they talking over cell phones to each other?
    You know, how do we actually communicate across all these 
agencies, especially, you know, considering the tense situation 
that everyone was dealing with? As you--go ahead.
    General Milley. Well I was going to say there was a command 
post set up, a combined command post with all the different 
agencies, 11--you know, you had the Metropolitan Police 
represented there, the Park Police with the Department of 
Interior, the Secret Service, FBI, DEA [Drug Enforcement 
Administration], ATF [Bureau of Alcohol, Tobacco, Firearms and 
Explosives], Capitol Police, Bureau of Prisons, U.S. Marshals, 
and various counties from around Arlington, or various police 
forces from around Arlington County, plus the DC Guard. They 
are all located in the FBI building.
    So they did the larger coordination there, and then on the 
very--at the various monuments, for example, that is the 
Department of Interior, and that is Park Police with the DC 
Guard.
    Mr. Gallego. Just specific to Lafayette Square.
    General Milley. They would communicate with cell phone.
    Mr. Gallego. Cell phone.
    General Milley. And/or they would be co-located face to 
face, and one guy would have a radio for his particular agency, 
and the other guy would have a radio for his.
    Mr. Gallego. And the National Guards were largely--when we 
were communicating to the National Guard that was done over 
radio?
    General Milley. I think it is a combination.
    Mr. Gallego. Combination?
    General Milley. Yeah, I think it would be a combination.
    Mr. Gallego. Could we--could we also figure that out too, 
what was the method of communication?
    General Milley. Sure. Yeah. Yeah.
    Mr. Gallego. And lastly, if----
    General Milley. That is air-ground communication and there 
is--you know, there is----
    Mr. Gallego [continuing]. And especially if there--and if 
there was any communication over radio through the National 
Guard, the National Guard--that the National Guard used, I am 
assuming that we have a transcript of the conversations that 
were happening?
    General Milley. That I am not so sure. I don't know if 
there is actual----
    Mr. Gallego. Could you check on that also?
    General Milley. If it is a military communication, I doubt 
there is a transcript. Just if it is a radio. I may be wrong, 
but I doubt it.
    Mr. Gallego. Gentlemen, can you check to see if there is 
any recordings----
    General Milley. Sure. Yes, I will----
    Mr. Gallego [continuing]. Specific to the date of June 
1st----
    General Milley. Yes.
    Mr. Gallego [continuing]. Or any other--or any other 
recordings that--see if you have it.
    General Milley. Police forces normally do that. I am not so 
sure about the--we can find out. We can get it. Yes.
    Mr. Gallego. Thank you. I yield back my time.
    The Chairman. Thank you, and I do have one follow-up 
question. Do either of you know who specifically gave the order 
to clear the protestors out of Lafayette Square ahead of the 
President's visit to the church on June 1st?
    You said the Guard was in support. Who gave the order and 
to whom I guess, to clear the protestors out of that square?
    Secretary Esper. We have had that discussion a few times. 
We had it the other day with Secretary McCarthy and Major 
General Walker, and it is still unclear to me who gave the 
direction to clear the park at that moment in time.
    The Chairman. See, I find that hard to believe. I am sorry, 
but it is like a pretty big decision. A lot of people there. 
Everyone is there, and it just sort of happened?
    Secretary Esper. No, I am not saying that. I am just saying 
I don't know. I have never inquired. I have never pursued it 
with anybody because you get caught up in other things more 
relevant to----
    The Chairman. Well how did you know to have the Guard hold 
back? Because I think there was a lot of testimony that says 
the Guard did not participate in clearing the square.
    Secretary Esper. Yes, I----
    The Chairman. Why did they not participate?
    Secretary Esper. I think, Congressman, that is the--we 
could actually get something from General Walker. I want to 
say--I don't want to quote him. I don't want to get it wrong. 
But I want to say that he was on the ground with the Park 
Police, and what they had asked him to do was to stay static, 
not move, and that was what he was operating from.
    I don't know----
    The Chairman. Okay.
    Secretary Esper [continuing]. That moment when he decided 
to move forward. But he was on the ground. I know he told me 
that yesterday or the day before, and was clear on that piece. 
But beyond that, maybe we get something from him to share with 
you.
    The Chairman. Chairman Milley, do you have anything to add?
    General Milley. Yes. I mean I think--I don't know with 
certainty but I am pretty sure that there was a planning 
session down at the FBI building in either late morning, around 
noon-ish, or early afternoon where they divided up who was 
going to do what to whom.
    Major General Walker is there. Secretary McCarthy is there 
and there are some others there, and I think that is where the 
agreement was as to where they would be.
    As to who gave the order, I don't know. I know Attorney 
General Barr has spoke to that publicly, and I know that it has 
been mentioned the Park Police captain, et cetera.
    I do not have personal knowledge as to who gave that actual 
order to clear the park.
    The Chairman. Okay. Thank you. Mr. Wittman, you are up next 
for 5 minutes. Sorry, didn't mean to surprise you there.
    Mr. Wittman. Thank you, Mr. Chairman. I would like to thank 
our witnesses for joining us today.
    General Milley, I would like to go into a little more 
depth. You answered the question about the training that our 
National Guardsmen have in responding to situations like we 
have seen here recently.
    As we know, most Americans associate National Guard with 
response to natural disasters and that sort of role. They are 
not used to seeing guardsmen in the role that we have seen them 
recently.
    You talked about some units being trained for that direct 
contact. But are there instances where a Guard unit may be 
called up that doesn't have that particular training, or do 
they--do they get the training across the full scope of what 
they may face?
    I understand how to organize, how to tactically address the 
situation. But there are other things, too. You know, the 
element of controlling emotions, all those sorts of things 
which are, you know, I call it the depth of training. It is not 
just the immediate tactical, but it is the depth of training to 
understand, hey, if you get in this situation--we see police go 
through that training all the time--to be able to deal with the 
adrenaline and the emotions of the situation.
    Give us a little idea, a little more in-depth. I know you 
talked about that because it is----
    General Milley. Yes. I mean your first National Guard unit 
of choice for civil unrest is police, and remember, a lot of 
these guardsmen are also cops in their civilian life.
    So but they will get very specific training on the rules on 
the use of force. They are not cops at the moment in time, so 
they are not going to conduct arrests, but they can do 
temporary detention.
    They are tasked with things like rules of conduct, crowd 
control, de-escalation procedures, how to make an appearance, 
don't react to verbal--don't react to verbal provocations, et 
cetera.
    So there is a wide variety of training they go through. A 
lot of it is vignette training and scenario training and STX 
[situational training exercise] type training. They do that 
during the course of the year.
    And then in this particular case they got quick refresher 
training as well, and they are trained on their equipment, and 
so on and so forth. And in this particular case, you are 
looking at batons and shields, and then their personal 
protective gear. None of them have any weapons downtown or 
right there at the Lafayette Square.
    So but they are trained on all of that stuff, and they are 
the force--the military force that we would first call for 
civil unrest would be National Guard, military police, and then 
you go from there with other types of units.
    Mr. Wittman. Okay. Very good. Secretary Esper, I want to 
ask you a little bit about the 1033 program. It obviously 
through time to time gets a lot of attention with the equipment 
that is formally used by the military that would be available 
to civilian law enforcement, and the question is, you know, 
does that militarize the police force?
    The questions always surround the central point of: do 
civilian police forces need that, and what connection is there 
to the military being requested for that equipment and the 
determination they make as to whether or not it is applicable 
for that to be sent to a civilian police force?
    Can you give us a little more laydown about what happens 
with the 1033 program? And does it just include the big 
equipment we hear about, or is it things like protective 
equipment like vests and those sorts of pieces of equipment?
    Secretary Esper. Yes, Congressman. As you know, it is a 
congressional program, and it is not something I have studied 
in much detail, and I don't think I could speak to what law 
enforcement deems as its requirements.
    It is something that I spoke with General Lengyel about the 
other day, and it is something that I hope will be--that may 
come up as part of the after-action review to get their 
assessment, if not internal but with law enforcement.
    But there is a wide range of items that are covered under 
that program. I can't pass judgment on some of the things. I 
would say I think we could all generally agree that if we have 
body armor, that would be helpful to the police to protect 
them.
    But beyond that, I would like to wait and see how our 
review comes out, or if you have specific questions I could 
take back and maybe see if the Guard wants to take a look at it 
or somebody like that.
    Mr. Wittman. General Milley, any comments?
    General Milley. Yes, I would--I would say that, like, in 
the case of DC with all of those different forces, uniforms--
just simple uniforms as opposed to other types of equipment, 
that became an issue and it was brought up a little earlier 
with the Bureau of Prisons.
    Our guys are wearing, you know, camouflage uniforms, et 
cetera. Some of these police are in blue uniforms, other in 
camouflage, other in solid green, et cetera. That became--in 
terms of the lessons learned, that would be something I would 
put in there as far as distinguishing character because you 
want a clear definition between that which is military and that 
which is police, in my view.
    Mr. Wittman. Yes.
    General Milley. And consistently you want police, local 
police, State police, Federal police, dealing with law 
enforcement stuff, and if necessary, National Guard under 
Governor control.
    But you want a clear distinction that which is police--a 
visual distinction of that which is police and that which is 
military, because when you start introducing military, you're 
talking a different level of effort there.
    The Chairman. I am sorry. The gentleman's time has expired. 
Mr. Esper was waving at me. Do you have a quick there?
    Secretary Esper. Just real quick. One of the things that we 
discussed the other day that I want to address is in terms of 
equipment.
    At one point, the National Guard, for example, cross-
leveled its riot shields and lent them to the law enforcement. 
So if you saw police out there using a military police shield, 
it is because we cross-leveled it and that is a lesson learned.
    But if you are going to do that, then we have got to figure 
out a way to mask the name Military Police so we don't confuse 
who is actually doing the crowd control.
    The Chairman. Thank you. Mr. Moulton is recognized for 5 
minutes.
    Mr. Moulton. Mr. Chairman, I learned very early in my 
Marine training that there are two types of courage: physical 
and moral. Usually the toughest challenges that I faced in Iraq 
required moral courage.
    Mr. Chairman, your apology for the events of June 1st at 
St. John's Church was an act not just of contrition, and 
rightly so, but also an act of moral courage, and I want to 
commend you for that. It is certainly unusual in this 
administration.
    Mr. Chairman, you, clearly, recognize the value of unity, 
not just in our military but in our country. Do you believe 
that other countries, our various adversaries around the world, 
are interested in taking advantage of divisions and unrest in 
our country?
    General Milley. I not only believe that they would, I know 
they are.
    Mr. Moulton. Mr. Chairman, are you willing to elaborate on 
that in any detail?
    General Milley. It would be best to do that in a classified 
session.
    Mr. Moulton. Very well.
    General Milley. I have no doubt in my mind that foreign 
adversarial countries are trying to take advantage of civil 
unrest in the United States.
    Mr. Moulton. Well I think it should go without saying that 
in fulfilling your primary job description, to provide 
forthright military advice to the President, I strongly advise 
you to advise him to work to sew up these divisions rather than 
exacerbate them as he likes to do, as Secretary Mattis and 
others have described in intimate detail.
    Mr. Secretary, turning to you, I don't think you get to 
pick and choose which leaks you like, which leaks aren't 
damaging versus what is an OPSEC problem. This White House 
routinely uses leaks to their advantage, but suddenly it is a 
problem for their apologists.
    Now, you and I have both commanded troops in combat, been 
responsible for their force protection. So I can assure you 
that I also don't care about the mere semantics of an 
intelligence report, and whether or not a particular word was 
used or not used. That proves nothing. What matters is the 
substance, and I have never seen in my time in combat when we 
didn't take any threat to our troops seriously, regardless of 
the confidence in the intelligence report, which is never 100 
percent. Whether it was leaked or not, we take action.
    So a very simple question. When were you made aware of 
Russian material support of the Taliban, who we all know have 
been killing American troops in Afghanistan for years, and what 
action did you take?
    Secretary Esper. Congressman, let me say on the first part 
though of your statement, you talked about the credibility of 
threats and all that. As you have heard us say that the reports 
were not--have not been corroborated, nonetheless----
    Mr. Moulton. My understanding is that some intelligence 
agencies believe that. There is not general consensus on that.
    Secretary Esper. The--all the----
    Mr. Moulton. But the bottom line is----
    Secretary Esper [continuing]. All the defense intelligence 
agencies have been unable to corroborate that report. To your--
one of the points you made, let me say this. You may have seen 
my written statement that was put out on my behalf.
    What I said was regardless, we do, I do, he does, the 
commanders take all reports seriously, regardless of the degree 
of credibility or confidence and I think that is the point you 
were trying to make, and I want to----
    Mr. Moulton. Absolutely.
    Secretary Esper [continuing]. I want to reassure you of 
that. So I--we have been in discussions with the commanders 
about this. I know General Miller and General McKenzie, going 
back as early as January were looking into this, pulling the 
threads, taking appropriate force protection measures.
    Our troops are already at the highest force protection 
level. But nonetheless, it is something that when I talk to 
them, I talk to them all the time about how do we--how can we 
do better--how can we do more?
    Mr. Moulton. So Mr. Secretary, you mentioned January.
    Secretary Esper. Right.
    Mr. Moulton. What action did you take to counter Russia, 
not to improve force protection of our troops, but to directly 
counter this threat from Russia?
    Secretary Esper. Yes. So I didn't see the first report 
until February when it came out in an intelligence piece of 
paper. I think General McKenzie and General Miller--the 
Chairman will help me here--got some initial reporting on the 
ground that they began pursuing.
    Neither thought the reports were credible as they dug into 
them, and in the time we have I see General Miller was--General 
Milley might be able to kind of add some more color to that.
    General Milley. Yes. I don't want to go too deep into the 
actual intel, but I've got multiple tours in Afghanistan, as 
you know, Congressman, and I have been aware of Russian 
meddling for years----
    Mr. Moulton. I understand, but my question is----
    Chairman Milley [continuing]. Going back to 2013 or so.
    Mr. Moulton [continuing]. What action did you take?
    General Milley. Well specifically at the tactical and 
operational military action, there is no military action that 
that intelligence specifically warranted, like conduct a raid 
or go after----
    The Chairman. And I understand. I apologize. I do 
apologize. Sorry, but the gentleman's time has expired and that 
is not a question that I think is going to be answered in the 
next couple of seconds. So we will have to take that for the 
record and get back to you.
    General Milley. I will get you an answer. I'll get an 
explicit answer.
    [The information referred to can be found in the Appendix 
on page 109.]
    Mr. Moulton. Thank you, Mr. Chairman.
    The Chairman. Mr. Gaetz.
    Mr. Gaetz. Thank you, Mr. Chairman. General Milley, I will 
allow you to respond to Congressman Moulton specifically as it 
relates to the depth, duration, and extent of the Russian 
malign influence campaign in Afghanistan, and perhaps the 
extent to which that well predates the current administration.
    General Milley. Well, first I want to be clear. It is not 
just Russia. There is many other countries that are influencing 
various actors in Afghanistan, and they are influencing them 
with training, money, weapons, propaganda, and international 
support and a lot of other things.
    And I am not going to go into sources and methods as to how 
we know that, but we know that. With respect to Russia, Russia 
is one of those countries that has been doing that for years, 
and they are doing it for their own reasons.
    The military action for us--and they are doing it through 
the Taliban and Haqqani and other groups. So the military 
action for us is the issue, first and foremost, is force 
protection.
    Regardless of who is providing weapons or who is providing 
money, our force protection measures are at the highest levels, 
and they are going to stay at the highest levels as long as we 
have troops out there. So----
    Mr. Gaetz. But just so that I could focus the question----
    General Milley. But I want to go to what we are doing for 
action. So at the tactical and operational level, there is no 
particular military action that we are not doing that we should 
be doing. The issue is higher than that. The issue is at the 
strategic level. What should or could we be doing at the 
strategic level?
    Is there diplomatic and informational and economic? Are 
there sanctions? Are there demarches? Are there phone calls? 
Are there pressure? Those sorts of things.
    And I can tell you that some of that is done. Are we doing 
as much as we could or should? Perhaps not. Not only to the 
Russians but to others. But a lot of it is being done. Some of 
it is quiet. Some of it is not so quiet. But don't think that 
we are not doing anything because that it not true.
    Now I want to get to specifically to the bounties, 
specifically to the bounties. That is a unique discrete piece 
of information that is not corroborated. You have all been 
briefed on it. I have, too, and I am--I, and the Secretary and 
many others, are taking it serious. We are going to get to the 
bottom of it. We are going to find out if in fact it is true, 
and if it is true we will take action.
    Mr. Gaetz. And I am glad you mentioned the other countries. 
September 5th, 2010--this is from the Times of London--Iran 
pays the Taliban to kill U.S. soldiers. Then also, following up 
on that, there is a December 2nd, 2015, report from Fox News, a 
report ``Iran Paying Taliban to Kill U.S. Troops.''
    Mr. Chairman, I seek unanimous consent to enter these in 
the record.
    The Chairman. Without objection, so ordered.
    [The information can be found in the Appendix beginning on 
page 95.]
    Mr. Gaetz. And General Milley, is it safe to say, given 
these reports along with the testimony you just provided, that 
the environment in Afghanistan, the very nature of the place 
and the very nature of the entities involved, means that our 
presence there does create these risks where our foreign 
adversaries create incentives and resources and opportunities 
for our service members to be harmed.
    General Milley. Anytime you commit U.S. military forces 
anywhere on earth, there is going to be risk. We went to 
Afghanistan for a single purpose, to prevent Afghanistan from 
ever being a platform to attack the United States of America 
with terrorists, and we have been there ever since to do that.
    We are drawing down forces in accordance with the agreement 
that was signed with the Taliban last February. There hasn't 
been significant Taliban or Haqqani attacks on U.S. forces 
since that agreement was signed, and under further direction of 
the President of the United States we are drawing down forces, 
as you will see unfold, and you will be briefed on that in full 
coming into the fall.
    But there is always risk, Congressman, and I know you know 
that. There is always risk. There is nothing risk free here.
    Mr. Gaetz. It is a risk I know you both appreciate, given 
your service to the country. It is a risk I know the President 
appreciates. I have had the occasion to join him at Dover when 
my constituents have come back for a dignified transfer, and 
that risk being so ever present seems to accentuate the 
importance of your mission to draw down troops, to create some 
semblance of normalcy in Afghanistan to the extent to which 
that is even possible. And I believe that it is an unrealistic 
goal to say that we have to chase every terrorist into every 
cave forever and stay there forever in order to protect the 
homeland.
    I think that we have proven that we can be more resilient 
at home without being more extended abroad, and that after 19, 
20 years in Afghanistan our Nation is growing very weary of 
this.
    We are growing weary of the dignified transfers. We are 
growing weary of the cost in terms of blood and treasure, and 
we grow weary of these circumstances where our adversaries--not 
just Russia but Iran and others that are in the region--utilize 
our continued presence. They utilize our, might I say, you 
know, unfocused extension of this conflict to try to harm 
Americans.
    So I wish you godspeed in the mission that you are on to 
draw down those forces, and I thank you for giving us the 
briefing, and certainly for enlightening us to the fact that 
this was not some further flare-up.
    The Chairman. The gentleman's time has expired.
    Mr. Gaetz. Thank you, Mr. Chairman.
    The Chairman. Mr. Carbajal is recognized for 5 minutes.
    Mr. Carbajal. Thank you, Mr. Chairman. Chairman Milley and 
Secretary Esper, thank you for joining us today to cover these 
very important issues.
    Before I ask my questions, I wanted to take a moment to 
mention Specialist Vanessa Guillen, who disappeared from Fort 
Hood in April after confiding in her family that she had been 
sexually harassed by a sergeant. Her remains were tragically 
found a few days ago. I am sure you are both aware of her 
story. I expect that you will do everything in your power to 
ensure that a full and independent investigation is completed, 
and continue to work to make our military welcoming and safe 
for our female service members.
    As for today's topics, both of you noted in your 
testimonies our country is going through a period of anger and 
self-reflection regarding how our society treats and includes 
certain members of our Nation. While I appreciate your words, 
actions speak louder.
    Secretary Esper, what concrete steps have you already taken 
and what other immediate actions do you plan on doing in the 
coming months to ensure that diversity is substantially valued 
and increased at all levels of our military, especially amongst 
the officer ranks?
    Secretary Esper. Congressman, thank you, and first of all, 
you mentioned Specialist Guillen. What a terrible tragedy, 
murder. It is just a horrible, tragic story, and I feel for the 
family and they have my deepest sympathies and condolences. And 
we will conduct a full and thorough investigation and get to 
the bottom of all that happened, and hold those accountable as 
appropriate.
    With that, your question is spot on. Look, we recognize 
that race is a problem in the military across the Nation. 
Discrimination, prejudice, bias. I talked about my quick action 
items. I have a list. I will probably put that out next week in 
terms of immediate things we will do to start getting rid of 
hidden bias in the military, such as removing photographs from 
promotion boards.
    But I have also had the privilege over the last 3 weeks to 
hold over half a dozen listening sessions with soldiers, 
sailors, airmen of all ranks across the country and simply 
listen.
    Beginning the conversation alone is something we have never 
really done, and the chance to sit down with these young men 
and women, I probably spent a total of 10 hours or so just 
listening, having the--having discussion, understanding that we 
don't even have the right terms and language and understandings 
of the definitions to have such a tough conversation, and I sat 
through many of them.
    So that will be part of what we are going to begin. But I 
think in terms of standing up the Defense Board, and ultimately 
the Defense Advisory Committee that is mirrored on DACOWITS 
[Defense Advisory Committee on Women in the Services], I want 
to believe in some ways it is an historic step, a major step 
forward, to really get at this underlying issue that has hung 
around the neck of our country for well over 200 years, and to 
address the fundamental problems of racism and discrimination, 
prejudice and bias, both conscious and unconscious.
    Because at the end of the day, the DOD is about having a 
cohesive unified ready force, and we rely heavily on persons 
from all backgrounds, creeds, races, ethnicities, genders, et 
cetera, to make us the greatest fighting force in the world.
    Mr. Carbajal. Thank you, Secretary. I want to ask another 
question. General Milley and Secretary Esper, I would like to 
also take a moment to commend you regarding the statements you 
made at Lafayette Square, being there in field fatigues. You 
state that it was a mistake, and you learned from it.
    I believe over the last month, there are many moments we 
can all learn from. Regret is one thing, but what would you do 
different in a similar situation? And while I understand we are 
waiting on reports on specific instances, such as the low-
flying National Guard helicopters and reconnaissance planes, 
what lessons has the Department learned about its response, and 
how would you--how are you both working to make improvements?
    Secretary Esper. You know, Congressman, one of the--go back 
to June 1st, the evening of June 1st, it became apparent to me 
late that evening.
    I think Chairman Milley and I had spent a couple hours 
walking around DC speaking to the soldiers. We were at the 
World War II Memorial and the Jefferson Memorial, and it, you 
know, became very clear that we needed to speak on this topic.
    And if you recall, and I think I entered into the record, 
Mr. Chairman, already, I put a statement out to the force 
within 18 hours or so that said very clearly that we have an 
oath to the Constitution, and that is our sworn oath to protect 
and defend the American people, and to give the American people 
the freedom to peaceably assemble and offer their speech, and 
that we at all times must do our best to remain an apolitical 
institution. That, I believe, is why we have the highest regard 
and respect in the country and have maintained that for many 
years.
    The Chairman. Mr. Carbajal, your time has expired.
    Mr. Carbajal. General Milley, what will you do different?
    The Chairman. Mr. Carbajal, your time has expired. Mrs. 
Hartzler, you are recognized for 5 minutes.
    Mrs. Hartzler. Thank you very much, Mr. Chairman. Thank 
you, gentlemen. First of all, I want to commend you for the 
amazing professional job that you all have done, especially the 
National Guardsmen, in very, very difficult situations.
    Mr. Secretary, you just mentioned the oath to defend our 
First Amendment rights, and just to review that, ``Congress 
shall make no law respecting an establishment of the religion, 
or prohibiting the free exercise thereof; or abridging the 
freedom of speech, [or] of the press; or of the right of the 
people peaceably to assemble, and to petition the government 
for redress of grievances.''
    What I have seen and what this country has witnessed in the 
last few weeks, I would argue, has not been peaceable many 
times and the National Guardsmen, these brave men and women who 
have volunteered and left their home to protect their country, 
they have faced with only batons and shields, they have been 
yelled at, called names that are unbelievable.
    They have had bricks thrown at them. They have been shoved. 
They have had frozen water bottles thrown at them. I have seen 
on TV fireworks being shot at them, and they have stood there. 
They have professionally taken it. They have defended our 
monuments and our treasures, and I just want to commend them.
    At the same time I want to denounce these actions of some 
Americans. This is violence. This is not peaceably assembling, 
and it should be treated as such.
    And we have had questions about training, and Mr. 
Secretary, I know you were just at Fort Leonard Wood a couple 
weeks ago, and our community was so thrilled to host you and I 
know that you have seen our missions there, including being 
home of the Army's Military Police School, and hopefully you 
have seen that we have room to expand, and we have heard a 
little bit about the training.
    I am wondering if you think it would be helpful to have 
centralized training to ensure consistency across all of the 
Armed Forces in military police actions, civil unrest 
behaviors.
    Secretary Esper. It is a good question, Congresswoman. I 
would like to take that back. Certainly, for the National Guard 
and how they train, you know, it is very important, 
particularly for the Guard that has this as a mission essential 
task to make sure that we have a solid baseline. But I would 
like to be deliberate and thoughtful on these things and get 
back to you.
    [The information referred to can be found in the Appendix 
on page 109.]
    Mrs. Hartzler. Thank you. We would----
    General Milley. Typically, Congresswoman, it is not going 
to be possible to do centralized training, given the scale of 
the military in terms of the numbers.
    So what is typically done is training is centrally planned, 
the task, conditions, and standards. Training and doctrine 
commands of each of the services lay out all the requirements, 
and then it is distributed for execution by unit commanders.
    That is for the forces that are in the operational force. 
All of the units in all of the different services go through 
the training schoolhouse. So having one central location for 
all things civil disturbance, that can be okay for doctrine, 
for task, condition, standards, to lay that out and that is 
typically what everyone does.
    But then the execution of the actual training, that needs 
to be more decentralized and distributed.
    Mrs. Hartzler. Right. Thank you. The Insurrection Act has 
been mentioned as well, and you were asked a lot of questions 
where you're supposed to ask yes or no.
    So I will carry on that for just one more question. Do you 
realize that the Insurrection Act was not acted on in this 
recent--in the recent days?
    General Milley. Yes.
    Secretary Esper. Yes.
    Mrs. Hartzler. Okay. Now that we have that clear, could 
there be scenarios in the future for a President where perhaps 
an Insurrection Act might be utilized and could be helpful?
    Secretary Esper. Congresswoman, let me answer it this way. 
Rather than speculating, let me offer history. The Insurrection 
Act was used in 1957 by President Eisenhower to federalize the 
Guard in Arkansas and to also call up the 101st Airborne 
Division in order to protect nine African-American students, 
known as the Little Rock Nine, so they can go to school.
    It was called up in 1962 by President Kennedy to federalize 
the Mississippi National Guard to secure the University of 
Mississippi, Oxford, in order to ensure James Meredith, an 
African-American Air Force veteran, to go to school. The 
military police remained there for over a year.
    In 1965, President Johnson deployed Active Duty forces to 
protect peaceful protest marchers in Alabama to ensure that 
they could protest peacefully opposing I believe segregation 
and confirming their First Amendment rights.
    So if you look at history, you can see where the 
Insurrection Act was used to advance civil rights, and in a 
very positive way that our history accounts fairly well.
    Mrs. Hartzler. Thank you. I yield back.
    The Chairman. Thank you. Mr. Brown is recognized for 5 
minutes.
    Mr. Brown. Thank you, Mr. Chairman. I have two questions. I 
will ask them quickly and I hope that you can answer them 
briefly.
    The first for you, General Milley. I know that you are a 
student of history, the history of warriors and warfare of the 
United States and our Armed Forces, and that you use that 
knowledge and understanding of our history to guide your 
decisions and thinking. You not only understand but you embody 
the values that we live by and that we die by as soldiers.
    Can you comment on the naming of Army installations after 
Confederate soldiers? Does it reflect the values that we 
instill in soldiers? Are these Confederate officers held up as 
role models in today's military?
    Does it help or hurt the morale or the unit cohesion of 
service members, particularly that of the black and brown 
service members who live and serve on these installations 
today?
    General Milley. Congressman, we have had a lot of 
discussions in the Department of Defense and the Joint Chiefs 
amongst the senior leaders on that very topic. I will give you 
a couple things to think about. I, personally, think that the 
original decisions to name those bases after Confederate 
generals--the 10 bases you are talking about in the Army--those 
were political decisions back in the 1910s and 1920s and 1930s 
and World War I, World War II timeframe--100 years ago. And 
they are going to be political decisions today.
    The military equity here is divisiveness, and as you 
mentioned cohesion. Forty-three percent of the United States 
military are minorities and in the Army, for example, in these 
Army bases you are talking about, we are up to 20-plus percent 
African American, and in some units you will see 30 percent, 
and for those young soldiers that go onto a base, a Fort Ord or 
a Fort Bragg or a Fort wherever named after a Confederate 
general, they can be reminded that that general fought for an 
institution of slavery that may have enslaved one of their--one 
of their ancestors.
    I had a staff sergeant when I was a young officer who 
actually told me that at Fort Bragg, and he said he went to 
work every day on a base that represented a guy who enslaved 
his grandparents. So the symbols of it, it is not just--you 
know, we have to improve the substance of promotions, et 
cetera, in the military. But we have also got to take a hard 
look at the symbology, the symbols. Things like Confederate 
flags and statues and bases and all that kind of stuff.
    The Confederacy, the American Civil War, was fought, and it 
was an act of rebellion. It was an act of treason at the time 
against the Union, against the Stars and Stripes, against the 
U.S. Constitution, and those officers turned their back on 
their oath.
    Now some have a different view of that. Some think it is 
heritage. Others think it is hate. The way we should do it 
matters as much as that we should do it. So we need to have--I 
have recommended a commission of folks to take a hard look at 
the bases, the statues, the names, all of this stuff, to see if 
we can have a rational clear discussion.
    Mr. Brown. Thank you, General Milley. I appreciate it. I do 
want to get to Secretary Esper.
    General Milley. Okay. I got it.
    Mr. Brown. I want to take a moment to thank you, Secretary, 
for clarifying your position on the use of force in deployment 
of our military against civilians exercising their 
constitutional rights to assemble to petition our government 
and peacefully protest.
    Mr. Secretary, as you stated in your June 17th statement, 
we strive to create an environment of diversity and inclusion 
in the military. You specifically stated removing bias and 
prejudice in all its forms and ensuring equal opportunity and 
respect for all will make us stronger, more capable, and more 
ready as a joint force.
    Last month, both the U.S. Marine Corps and U.S. Navy 
announced plans to ban the Confederate flag and associated 
imagery on bases and installations around the world. This 
symbol honors those who fought, as General Milley mentioned, to 
maintain oppression and slavery.
    Furthermore, the Confederate flag is used albeit not by 
everyone, but is used by white supremacists and other 
organizations to continue to spread hate and racism.
    In the NDAA [National Defense Authorization Act] we include 
a provision to ban its display on all Department property. But 
I believe that immediate action should be taken. What is your 
plan regarding a Department-wide ban of this symbol?
    Secretary Esper. Thanks, Congressman. First of all, let me 
again, you know, echo what you said about the National Guard, 
and I am reminded this is a use-of-force card that was handed 
out to the DC Guard, and here prominently in bold says, 
remember to preserve the peace and allow fellow Americans to 
peacefully assemble and exercise their First Amendment rights. 
That is what our Guard was trained on when they were operating 
in DC.
    Look, I have a process underway by which to look at a 
number of issues, both substantive and symbolic. It will be a 
combination of the Defense Board and the Advisory Committee. We 
want to take a look at all those things. There is a process 
underway by which we affirm----
    The Chairman. And I am sorry, Mr. Secretary, if you could 
wrap up quickly. The gentleman's time has expired.
    Secretary Esper [continuing]. Which we affirm what types of 
flags are authorized on U.S. military bases. I want to make 
sure that we have an approach that is enduring, that can 
withstand legal challenge, but that unites us, and most 
importantly helps build cohesion and readiness. And again, that 
process is underway and----
    The Chairman. Thank you. I think that----
    Secretary Esper. Yes, sir.
    The Chairman. Mr. Waltz.
    Mr. Waltz. Thank you, Mr. Chairman.
    The Chairman. Mr. Waltz, you are recognized for 5 minutes.
    Mr. Waltz. Thank you, Mr. Chairman.
    Mr. Secretary, General Milley, I do want to commend the 
Guard.
    [Inaudible.]
    The Chairman. I am sorry, Mr. Waltz. You are--you are deep 
in the water here. We cannot understand you. Can you give it 
one more quick try? Or we may have to move on.
    Mr. Waltz. Okay. How are we doing now?
    The Chairman. Much better. Go.
    Mr. Waltz. I just want to commend the Guard. My 
understanding is we have over 70,000--you know, that is, 
roughly, six divisions--currently deployed for the homeland and 
overseas. That is for COVID; that is for civil unrest; that is 
for ongoing overseas missions. And they haven't even gotten 
into hurricane season in Florida or wildfires or others.
    Mr. Secretary, the Guard's defense strategy points to 
demographic and economic trends that are critical to where we 
have the force structure around the country and says that it 
must be prepared to reposition Guard force structure in light 
of those shifting trends, particularly shifting populations, 
which as we know shifted fairly drastically over the last 
several decades.
    Yet the force structure hasn't followed. In fact, in 
Florida, Florida right now ranks 53 out of 54 States and 
territories in terms of the size of the Guard per capita of its 
population. I think we all know with every hurricane bearing 
down every season, wildfires, and others, how much it is used.
    Can you come back to me for the record [inaudible]----
    [The information referred to can be found in the Appendix 
on page 109.]
    The Chairman. I am sorry, Mr. Waltz. Once again, we--Mr. 
Waltz, we can't understand you. I think the first part of your 
question was reasonably clear. Mr. Esper, if you wanted to take 
a stab at the Guard situation in Florida and answer that, if 
you can, and take a shot at it.
    Secretary Esper. Thank you, Mr. Chairman. And Mr. Waltz, 
thank you. I think from what I caught--I will follow up with 
you offline. I think you were talking about the disposition or 
maybe the composition of Guard forces in Florida and how it has 
changed over time, or not, with demographics.
    So maybe I will just follow up with you offline, and I 
think you asked that we have a conversation with General 
Lengyel. That is what I took from that.
    Mr. Waltz. Yes, Mr. Chairman. If you could hear me, just a 
slight tweak there. It is nationwide. It is how the Guard is 
shifting to reflect population flows.
    Particularly we are looking at the per capita. You know, 
Florida's population has doubled since 1980, yet its Guard 
remains stagnant. So that would be one piece, and then--can you 
hear me?
    The Chairman. Yes. No, you are breaking up. I apologize. We 
are going to have to move on. We have got a limited amount of 
time. We will get that back to him. But we cannot hear you 
properly. So we are going to move on to Mr. Keating. He is 
recognized for 5 minutes.
    Mr. Keating. Thank you, Mr. Chairman. Mr. Secretary, Mr. 
Chairman, thank you for your straightforward way you are 
addressing the Lafayette Square issue and civil law 
enforcement. I appreciate that.
    I want to circle back before we are done, because I know 
how a video clip can work. Secretary Esper, you were asked I 
believe by Mr. Turner about bounties, and I want to be clear. 
The question was asked, was the word ``bounties'' used in 
reports that you might have reviewed regarding attacks on our 
troops.
    So let me be clear. You can acknowledge that to your 
knowledge there was no bounties. Yet, indeed, there were 
reports that mentioned payments. Is that correct?
    Secretary Esper. Congressman, that is correct. I was 
responding to the specific question of do I recall use of the 
word bounties, and I think what I said is I do not recall the 
use of that word.
    Mr. Keating. No, I think you answered it correctly. But I 
didn't want a sound bite at the end of this hearing coming out 
that said that you said that you never saw a report on 
bounties. So that is clear.
    Secretary Esper. Congressman, I always--I always try to 
avoid politics, Congressman.
    Mr. Keating. I know. In any case, I didn't want you to be 
drawn into it unnecessarily. How is that?
    In any case, Director Haspel--CIA Director Haspel--just in 
the last few days has said how important it is for force 
protection that the dissemination of information occurs and is 
shared to all national security community members, obviously to 
all of you, in an ongoing effort to secure our troops.
    So she also--it was underscored clearly that the immediate 
versus delayed dissemination of that information of 
intelligence reports is critical. Are you satisfied that you 
are getting immediate transfer of this intelligence from our 
other agencies so if it is actionable you can act on that? Can 
you state that for the record, that there is--you don't 
perceive any delays, that this is really live-time 
dissemination to you?
    Secretary Esper. Congressman, I get a lot of reports every 
day, an inch thick of material I try and get through and read 
through. I know the Hill--this committee gets reports as well, 
and I think you saw the same reports that I saw on this topic.
    It is hard for me to gauge the timeliness because I don't 
know when they start or when they get it. But you know, 
clearly, there is a process part of this, an analysis part, 
that once they get information converting it into intelligence, 
all that happens, I just don't have a sense of the timing, 
but----
    Mr. Keating. I don't mean to interrupt, but----
    Secretary Esper [continuing]. I will follow up with her. I 
can follow up with her on that offline.
    Mr. Keating. Please do, because it is essential that you 
get that information. I also want to know independently, you 
know, some of these unsourced reports do a lot for family 
members. I come from a family where we lost a family member in 
action, and particularly, you know, reports around 2019, the 
casualties that were there, the soldiers we lost.
    Could you tell us: independently are you looking into those 
as well, given the intelligence you have, particularly the 
April 2019 suicide bombing outside of Bagram Air Base that 
killed three of our U.S. Marines, are you looking at this 
independently, based on the intelligence you have?
    Secretary Esper. Congressman, first of all, I share the 
concern and condolences still to the family of those Marines I 
believe who were lost. Let me say this much, and I will ask 
Chairman Milley to jump in here.
    General McKenzie is looking back over time. I think he 
stated publicly as well is he doesn't see causality with that 
one, and I believe that I got a separate report from one of my 
intelligence agencies saying that they cannot find any 
corroborating evidence with regard to that alleged program with 
regard to that attack on those three Marines. But Chairman?
    General Milley. Congressman, as of today, right now, we 
don't have cause and effect linkages to a Russian bounty 
program causing U.S. military casualties. However, we are still 
looking. We are not done. We are going to run this thing to 
ground.
    Mr. Keating. Yes. Thank you. And just as clarification from 
an intelligence standpoint without being wonky, I mean 
cooperation usually isn't a term that is used by--it is usually 
remote, you know, improbable, even odds, probable, highly 
probable. Those are the kind of--or certain. Those are the kind 
of intelligence terms that are done, linking things together.
    I will yield back. I am actually yielding back some time, 
Mr. Chairman.
    The Chairman. Thank you. Mr. Vela, you are recognized for 5 
minutes.
    Mr. Vela. All right. Thank you, Mr. Chairman. Secretary 
Esper and Chairman Milley, I have got two questions and 
whatever time is left I would like to yield to Ms. Slotkin so 
that she can get ready for that.
    But my first question refers to Vanessa Guillen that Mr. 
Carbajal brought up, and what I would like to do is--I am sure 
you are both as disturbed as we all are by the events leading 
to her death, and what I would like to do is give you an 
opportunity.
    She has family members in my district, and we would like to 
give the opportunity to tell that family what we are going to 
do to make sure that those sorts of things don't happen again.
    Secretary Esper. Congressman, let me first go first and 
speak to you, but more importantly, the family and just express 
our sincere condolences with regard to what happened to 
Specialist Guillen.
    It is tragic. It is horrible. I watched this over the 
preceding couple months in terms of how it unfolded. And I 
can't imagine the despair of the parents, not knowing what 
their--the fate of their daughter, and it is just a terrible 
incident.
    I spoke yesterday or the day before with Secretary 
McCarthy. They are on top of that. As you know, they have a 
couple suspects I think have been arrested, and they are 
digging deeply into the investigation. I think we need to 
continue to pursue that and take a hard look at that.
    And then, you know, we got to continue to work at the--at 
what is believed to be an underlying issue--the underlying 
issue--and that was she was sexually harassed, if not 
assaulted, by the soldier in question. That is something that 
continues to be a stain on the profession. We have made a lot 
of progress over 10 years, but nowhere near where we need to 
be.
    We need to get to zero tolerance of sexual harassment and 
sexual assault, and we need to make sure that everybody in our 
ranks knows where they can go to--for help, where they can find 
help, and we've got to continue to emphasize that.
    We've got to continue to empower the chain of command to 
make sure we do everything possible to make sure that we never 
have another incident like what happened to Specialist Guillen. 
And so that is my commitment and I know it is the Chairman's 
commitment as well. Chairman.
    General Milley. Yes, I would echo everything the Secretary 
said. As a father of a daughter, that is just a nightmare. I 
mean it is a--my heart bleeds for that family, and I can't even 
begin to imagine what they are going through. But I want them 
to know that we are going to do everything in our power to make 
sure that that doesn't happen again.
    I don't know all the details. A full investigation will 
come out by Secretary McCarthy. I suspect, although I don't 
know, that there were probably some missed signals, and one of 
the key lessons that we have learned in other situations is 
when we do get early warning it is to take action, and take 
action swiftly and appropriately.
    So I think that will--my guess is that will probably come 
out in this space, and that will be one of the things we need 
to implement for the future to make sure it doesn't happen 
again.
    Mr. Vela. Well thanks to both of you. My other question is 
for you, Secretary Esper. You recently extended the deployment 
of 4,000 troops to the southern border, and what I am wondering 
is--and just today in the Rio Grande Valley, the hospitals were 
forced to set up tents to serve as ICU [intensive care] units, 
and I am wondering if there is any consideration being given to 
using those troops to help support local efforts to confront 
the coronavirus pandemic.
    Secretary Esper. Congressman, I will answer your question 
two ways. First of all, you are right, we did extend--reduced 
it but extended the deployment.
    We are there, as you know, in support of the Department of 
Homeland Security, and as they give us mission statements we 
try and be responsive and supportive of what they do. In this 
case, if they need additional medical support, that is clearly 
something that we could provide if needed.
    I think beyond that, unless I misunderstood your question, 
we are now reacting to incoming requests from FEMA. I spoke to 
Director Gaynor the other night with regard to COVID spikes in 
Texas. Throughout Texas, as you may or may not know, we have 
already deployed a team of medical personnel to assist in 
Texas, and we are on the alert and looking for outbreaks in 
other States such as Arizona, Florida, California, to make sure 
that we are responsive to the American people in terms of 
dealing with any outbreaks that may happen around the country.
    The Chairman. And the gentleman's time has expired. Mr. Kim 
is recognized.
    Mr. Kim. Thank you so much for coming down here and talking 
to us today. As you have referred earlier, many of us members 
were briefed here in this room earlier today about the 
intelligence, and about what we know about possible Russian 
payments to the Taliban or militants to kill American soldiers 
and service members in Afghanistan.
    I have to tell you, leaving aside the discussions about 
whether or not there is sufficient evidence regarding possible 
bounties or payments, whatever we want to call it, I have to 
say that the intelligence and what we know about Russian 
efforts in Afghanistan writ large targeting our personnel is 
deeply concerning to me.
    And General Milley, you made reference to this, saying that 
this is something that we have known for quite some time and 
quite a number of years.
    I just wanted to ask this question. I couldn't help but, 
while I'm in this room getting this briefing, think about a 
previous time that we have been in this exact room together at 
the beginning of this year talking about Iran, and at that time 
Secretary Esper and others were talking about how there was a 
threat to our personnel with regards to our personnel in Iraq 
and the region due to Iranians and Iranian-backed militias.
    So I want to just hear from you. Both of these instances of 
what we know--what we do know about Russia's involvement in 
Afghanistan, both of them involve another nation arming and 
directing militants to kill American service members or target 
American service members abroad.
    Yet I see two very different reactions to this coming from 
you, from the administration. So I wanted to ask for your 
explanation of what is the difference in the posture there 
between our conversations in January as what we are having 
today? Secretary Esper.
    Secretar Esper. So, Congressman, I think they are very 
two--two very different situations. So with regard to Iran, you 
had a case of the head of the IRGC [Islamic Revolutionary Guard 
Corps], which is designated by the United States as a foreign 
terrorist organization. He was the foreign terrorist leader of 
that foreign terrorist organization.
    He had the blood of hundreds of Americans, going back many, 
many years, on his hands. He had orchestrated the rocket 
attacks that had preceded--that had occurred in that December, 
and we had clear credible information that he was planning 
additional attacks on American personnel in the region.
    So a very different circumstance between what we saw, the 
evidence we had, our understanding of the threat in Iraq that 
was--on that battlefield that was being orchestrated by 
Soleimani, and it was the clear consensus of the President's 
national security team that he was a legitimate target. Again, 
very different from information we are picking up with regard 
to Russia, et cetera. But Chairman, I don't know if you want to 
add anything to that.
    General Milley. Yes, I want to key in on something you 
said, Congressman. We have been aware for some time of Russian 
involvement or Iranian involvement, or Pakistani or Chinese 
involvement in other countries. But there is a big distinction 
between arming and directing. We know about arms. We know about 
weapons. We know about support and things like that. We don't 
have--in the case of the Russians, we do not have concrete 
corroborating evidence, intelligence, to show directing, and 
that is a big difference.
    And if we did, there would be a different response, too. So 
but that is what I am saying. We are not done looking. We are 
going to dig into this. We are going to get to the bottom of 
it, this bounty thing. If in fact there is bounties, I am an 
outraged general, just like every one of us in uniform is. If 
in fact there is bounties directed by the government of Russia 
or any other institutions to kill American soldiers, that is a 
big deal. That is a real big deal.
    Mr. Kim. Yes.
    General Milley. We don't have that level of fidelity yet. 
We are still looking.
    Mr. Kim. Well we will continue to go through the 
intelligence with you. Regardless of whether the payments were 
made, I felt that there was significant information there about 
directing. But again, we will continue that conversation going 
forward.
    Secretary Esper. Congressman, just curious, were you able 
to get the briefing today?
    Mr. Kim. I did. That is right.
    Secretary Esper. Okay. Good. Good.
    Mr. Kim. Just one last question. When we talk about the 
National Guard being utilized, you were talking, General 
Milley, about the training that they often get.
    Yet when we looked at it, out of the 5,100 guardsmen and 
women who were here in DC last month, only 154 from the DC 
National Guard were military police, 26 security forces from 
other States. Only 83 were military police, and 4 were security 
forces. That is 5 percent out of the 5,100.
    Secretary Esper, when you sent out your notice of emergency 
deployment, you focused on Active Duty military police units. 
Why was that not done the same for our guardsmen in terms of 
prioritizing military police personnel?
    The Chairman. And this will have to conclude. I understand 
the Secretary has to go. We are over time. So up to you how 
long you wish to answer that question, and then we are--we will 
be done. Go ahead.
    Secretary Esper. Probably the Chairman may be better 
situated. But you know, every soldier undergoes a certain level 
of training, and of course we would not ask them to perform a 
mission if they weren't briefed on the rules of engagement and 
had a basic level of training.
    But your point is a fair one. As we try and prioritize, as 
the Chairman noted earlier, the best for these situations would 
be military police units. But you also have to go with what you 
have available at the time to do that, and that is why I am so 
proud of our guardsmen who were, in many cases, performing 
missions that weren't core missions, but were a core mission as 
a soldier or an airman.
    The Chairman. Thank you. I will say there were a lot of 
members who did not have an opportunity to question. I 
understand the Secretary does have to go. We would like to have 
the opportunity to submit those questions for the record and 
get answers as quickly as possible. And with that, we are 
adjourned.
    [Whereupon, at 3:10 p.m., the committee was adjourned.]

     
=======================================================================


                            A P P E N D I X

                              July 9, 2020
    
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                              July 9, 2020

=======================================================================

      
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]	

      
=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                              July 9, 2020

=======================================================================

   [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]	

      
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                              July 9, 2020

=======================================================================

      

             RESPONSE TO QUESTION SUBMITTED BY MR. MOULTON

    General Milley. The Department of Defense takes all threats to our 
forces very seriously. Our commanders on the ground in Afghanistan 
vigorously exercised and continue to exercise their duty to protect our 
men and women in uniform by continuously updating force protection 
measures based on all reliable intelligence. As I stated in my 
testimony before the committee on July 9, the specific intelligence 
that Russian financial incentives to the Taliban led to the deaths of 
U.S. personnel have not been fully corroborated. I have examined the 
available intelligence in depth and continue to do so. I have discussed 
this issue at length with the Secretary of Defense, intelligence 
community and senior U.S. political leadership. Additionally, I have 
discussed this with my Russian counterpart on several occasions. If any 
additional information comes to light that links Russian financial 
incentives to the attacks on U.S. forces, we will evaluate that 
information, and I will provide my best military advice to the 
Secretary of Defense and the President.   [See page 32.]
                                 ______
                                 
            RESPONSE TO QUESTION SUBMITTED BY MRS. HARTZLER
    Secretary Esper. Since 2007, U.S. Northern Command and the National 
Guard Bureau (NGB) have operated the Joint Training Continuum, a 
portfolio of Defense Support of Civil Authorities joint training 
courses and exercise programs established with approval from officials 
within the Office of the Secretary of Defense. The curricula and 
exercise constructs are centrally planned and designed, and they 
include instruction on relevant tasks, conditions, and standards. State 
and territorial Joint Forces Headquarters Staffs, Joint Task Force 
Commanders, Dual Status Commanders, National Guard Reaction Forces, and 
other National Guard personnel are trained through the Joint Training 
Continuum on matters of domestic defense support of civil authorities. 
Approximately 10,000 personnel are trained per year through the Joint 
Training Continuum.   [See page 37.]
                                 ______
                                 
              RESPONSE TO QUESTION SUBMITTED BY MR. WALTZ
    Secretary Esper. In general, the Air and the Army National Guard 
participate in the stationing processes of their parent Services. For 
the Air National Guard, stationing of units is based upon the scoring 
criteria as defined by the Major Command, or MAJCOM, that is 
responsible for that unit. The scoring criteria changes for each 
stationing action, but generally does consider the capacity of the 
location to host the unit. For the Army National Guard, state 
demographics is one of several factors that is considered when 
balancing capabilities across the states and territories. Florida did 
receive additional force structure in fiscal year 2018 for the Florida 
Army National Guard with the arrival of the second and third battalions 
of the 54th Security Force Assistance Brigade, and is also scheduled to 
receive an additional 167 force structure authorizations for a Light-
Medium Truck Company.   [See page 40.]

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                              July 9, 2020

=======================================================================

      

                  QUESTIONS SUBMITTED BY MR. CISNEROS

    Mr. Cisneros. SPC Guillen had told her family that she had been 
sexually harassed, that the person harassing her had been accused by 
others, yet nothing was done. Fort Hood's sexual harassment policies is 
under investigation but sexual harassment throughout the military is on 
the rise. Do you believe that existing DOD policy regarding sexual 
harassment needs to be revisited and reformed?
    Secretary Esper. The Department of Defense (DOD) consistently 
reviews its policies to assess their effectiveness and looks for ways 
to improve our approaches to prevent and respond to harassment. 
Harassment of any kind is unacceptable, degrades our readiness, and 
undermines our ability to meet our nation's defense requirements. 
Although more work remains, there has been progress in recent years.
    In 2018, the Department released its first-ever comprehensive 
military harassment policy, DOD Instruction 1020.03, ``Harassment 
Prevention and Response in the Armed Forces.'' This policy brought 
together--and enhanced--the Department's more disparate harassment 
policies, including those addressing sexual harassment, across DOD 
Components and expanded the definition of harassment beyond traditional 
Equal Opportunity discriminatory harassment. The policy also identified 
the proper process for addressing sexual harassment allegations, and 
identified training and education requirements. In accordance with the 
policy, Secretaries of the Military Departments establish military 
harassment prevention and response programs to ensure assistance and 
support for harassment complainants. Subsequently, the Department 
established the Defense Equal Opportunity Reform Group (DEORG) to 
develop an overarching harassment policy applicable to DOD civilian 
employees. The DEORG helps facilitate senior leader engagement on these 
issues, specifically to identify and address any policy gaps, ensure 
leadership accountability at all levels, and review education and 
training requirements for equal opportunity professionals.
    In 2020, DOD published a new policy, DOD Instruction 1020.04, 
``Harassment Prevention and Response for DOD Civilian Employees.'' The 
new DOD civilian employee anti-harassment policy provides procedures 
for training, education, and response to all forms of harassment, 
including sexual harassment. While the 2018 policy covered Service 
members, the Department recognized the importance of publishing a 
corresponding, comprehensive policy for our civilian workforce, too.
    Publication of these policies is a positive step forward, but our 
efforts are ongoing. The Department continues to track data to evaluate 
the effectiveness of current policies and processes, and to make 
recommendations for the future. DOD is working to incorporate insights 
from prevention subject matter experts with experience in developing 
evidence-based prevention methods.
    DOD is fully committed to empowering and supporting Service members 
and civilian employees who experience harassment and to encourage 
reporting of this unacceptable behavior. Military commanders are 
ultimately responsible for establishing climates consistent with core 
values--climates that discourage misconduct and self-destructive acts, 
unnecessary risk activities, and other readiness impacting behaviors.
    Mr. Cisneros. SPC Guillen had told her family that she had been 
sexually harassed, that the person harassing her had been accused by 
others, yet nothing was done. Fort Hood's sexual harassment policies is 
under investigation but sexual harassment throughout the military is on 
the rise. Do you believe that existing DOD policy regarding sexual 
harassment needs to be revisited and reformed?
    General Milley. I have gone on record stating that sexual assault 
is an unconscionable act, it is a crime, and it is an act of fratricide 
within the Joint Force. It is a cancer within an organization and we 
have got to crush it. I do believe we need to take a harder look at the 
overall DOD policy regarding sexual assault and harassment and make 
recommendations to Congress on potential updates and reforms. It is 
obvious that we as a Joint Force still have a long way to go. I, along 
with my fellow Joint Chiefs and Combatant Commanders are committed to 
working with Congress on getting this right.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MRS. TRAHAN
    Mrs. Trahan. Secretary Esper, culture plays a central role in the 
flow of information to the Oval Office and how confident Administration 
officials feel in offering honest, real-time feedback and counsel.
    I'm worried that President Trump has fostered a culture of 
``acquiescence''--where subordinates are fearful, reluctant or anxious 
about challenging the President on issues that might upset him or go 
against his view of the world. There are a number of examples from this 
Administration where the President thinks he has unlimited authority; 
and there doesn't seem to be advisors around him who challenge his 
judgment and decision making in real time. A culture that doesn't 
permit questions, pushback, or alternative opinions in the moment is 
*beyond* worrisome.
    I hope that you have the courage to challenge the President even 
when it's contrary to what he wants to hear, but is necessary for the 
protection of our service members. We don't ever want to be in a 
situation where it is too late to walk something back.
    Do you believe you have the ability and willingness to challenge 
the President? Is there an example you can point to?
    Let me say how concerned I was to hear your rhetoric on how we 
needed to ``dominate the battlespace.'' Your rhetoric sets the tone for 
all who serve in our military. We cannot, and should not, be creating 
an environment that would lead our troops to believe they should view 
protestors as an ``enemy or adversary'' who should be ``dominated.
    But as you've mentioned, the President did not invoke the 
Insurrection Act, can you please describe the conversations that led to 
that decision to stage out-of-state Active Duty troops outside of DC?
    Do you believe there should be more checks with Congress when any 
President invokes this last resort approach? Should there be at least a 
formal notification process to Congress?
    Secretary Esper. I have always tried to provide the President with 
my best advice and I remain committed to doing so. However, it would be 
inappropriate for me to discuss the specific advice I have provided to 
the President. As I said in my statement for the record, the Chairman 
of the Joint Chiefs of Staff, the Attorney General and I participated 
in an Oval Office meeting with the President to discuss how best to 
protect the District of Columbia. The discussion included using 
National Guard personnel to protect Federal functions, personnel, and 
property. Consistent with principles of military preparedness, and to 
provide the President with options to respond quickly in case the 
crisis escalated, we did issue ``be prepared to deploy'' orders to just 
over 1,700 active-duty military personnel, and staged them at military 
bases outside of the District of Columbia beginning on June 2, 2020. 
However, these forces never entered the District, and they began 
redeployment back to their home stations two days later. They all 
returned to their home stations by June 6, 2020. It was my assessment 
that District of Columbia authorities had sufficient capabilities from 
local and Federal law enforcement, supported by National Guard 
personnel, and did not require the assistance of active-duty military 
personnel.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MR. BRINDISI
    Mr. Brindisi. Secretary Esper, in your written testimony you 
explain that the National Guard members deployed to Federal Government 
properties were authorized to take ``reasonable measures'' to ensure 
the protection of property and the safety of Federal personnel. Can you 
explain, specifically, what these reasonable methods are?
    Were the Guard members trained to carry out these specific 
``reasonable methods? If yes, can you specify regarding the exact 
training they received in order to be prepared for these situations?
    In your view, were all actions taken by the Guard ``reasonable''?
    Secretary Esper. By reasonable measures, I mean exercising 
restraint in using force to ensure any such use is reasonable in 
intensity, duration, and magnitude, and exercised with due regard for 
the safety of innocent bystanders. Yes, the National Guard members were 
properly trained. The Adjutant General of each State, Territory, and 
the Commanding General of the District of Columbia are responsible for 
manning, training, equipping and employing their National Guard 
Reaction Forces. The States are required to conduct training annually, 
at least. Training for the reaction forces include: providing facility 
security; point/site and area security; emergency responder training; 
protection, public safety support, and crowd control support; standing 
rules for the use of force; de-escalation; training on non-lethal 
force; maintaining coordination with civil authorities; providing quick 
reaction support and rapid reaction forces. National Guard personnel 
were outfitted with standard riot gear, including a face mask, shield, 
baton, shin guards, and pro mask. The District of Columbia National 
Guard routinely trains on, and performs, this mission set. National 
Guard personnel deployed into the District of Columbia were trained and 
briefed on civil disturbance, civil disturbance incident awareness and 
assessment, the District of Columbia National Guard's civil disturbance 
rules for the use of force, operational procedures, policies, and 
limitations on interactions with civilians and civilian law enforcement 
officials. In general, actions taken by the National Guard in the 
District of Columbia were reasonable. I have directed an investigation 
of all complaints.
    Mr. Brindisi. Secretary Esper, given the nature of the protests as 
you understand them, do you think the use of the National Guard against 
protesters was appropriate? Would you make the same decision again 
under the same circumstances to call in the National Guard in response 
to civil protests?
    Secretary Esper. The National Guard was not used against protesters 
or other people exercising their right to assemble peaceably. At the 
height of the civil unrest, more than 43,000 Army and Air National 
Guard personnel in 33 States and the District of Columbia were called 
upon to assist Federal, State, and local law enforcement agencies in 
restoring and maintaining order, protecting their communities, and 
defending the rights of all Americans to protest safely and peacefully. 
In the District of Columbia, District of Columbia National Guard 
personnel supported the U.S. Park Police, the U.S. Marshals Service, 
and the District of Columbia Metropolitan Police Department. The DC 
National Guard personnel provided point security and access control; 
assisted civilian law enforcement authorities with crowd management; 
and provided medical and transportation support. National Guard 
personnel also deployed from 11 States to protect Federal functions, 
property, and personnel.
    Mr. Brindisi. Secretary Esper, I think it is safe to say that this 
situation could have been handled much better, and that responsibility 
falls on you as senior leaders at the Pentagon. Could you walk me 
through exactly what you would do differently if a situation like this 
arose again in the future under your leadership?
    Secretary Esper. As I did in June, I will do my best to provide the 
President with options that I consider appropriate to the specific 
circumstances. At all times, recommended courses of action will comply 
with applicable law.
    Mr. Brindisi. Secretary Esper, what training do National Guard 
personnel receive that prepares them to support civil disturbances? 
What exactly was their assigned mission, and in your view, did the 
National Guard members who responded to the protests they have the 
proper training and equipment for that mission? If no, why would we 
ever put our guard members in a position they have not been trained 
for? Are there other situations where they would be summoned to conduct 
law enforcement operations?
    Secretary Esper. National Guard training on non-lethal weapons and 
crowd control is carried out as part of each State's civil disturbance 
contingency planning and training. Adjutants General direct the 
formation and training of their State's National Guard Reaction Force 
for civil disturbance contingencies. These forces conduct annual 
training, including on the use of non-lethal weapons, crowd control, 
and rules for the use of force, focused on de-escalating the situation 
in support of law enforcement. National Guard personnel, at many 
locations across the United States, supported law enforcement agencies 
to ensure the protection of property and the safety of personnel. 
National Guard Bureau policy requires National Guard personnel to 
complete civil disturbance training prior to directly participating in 
any civil disturbance operations.
    Mr. Brindisi. General Milley, given the nature of the protests as 
you understand them, do you think the use of the National Guard against 
protesters was appropriate? Would you make the same decision again 
under the same circumstances to call in the National Guard in response 
to civil protests?
    General Milley. The President, Secretary of Defense, and the 
Governors of several states determined that the employment of the 
National Guard was lawful and appropriate to preserve public safety in 
late May and early June. Overall the use of the National Guard was 
appropriate. The civil unrest related to George Floyd's death did 
require support from the National Guard to protect facilities, 
officials, and support law enforcement. The National Guard remains 
ready and legally available to assist civil authorities with 
maintaining public safety.
    Mr. Brindisi. General Milley, I think it is safe to say that this 
situation could have been handled much better, and that responsibility 
falls on you as senior leaders at the Pentagon. Could you walk me 
through exactly what you would do differently if a situation like this 
arose again in the future under your leadership?
    General Milley. My statutory responsibilities are to serve as the 
principal military advisor to the President, Secretary of Defense, 
National Security Council, and Homeland Security Council. By law, I am 
not, and never was during this crisis, in control of any forces. I 
provided military advice on the use of U.S. Military Forces.
    With respect to how the military could have operated differently 
during this crisis, the Joint Staff is collecting lessons learned as 
part of a formal after-action review (AAR) on the Department of 
Defense's response to civil unrest. I expect multiple lessons to arise 
related to the intricacies and complexity of the command and control 
structure in Washington, D.C., and how federal and local law 
enforcement and National Guard forces worked together to respond to 
civil unrest in the District. The lessons we learn from this process 
will allow us to examine how we plan, train, equip, and operate for 
military response to civil unrest in support of civil authorities. Once 
I have completed my review of the AAR, I would be happy to discuss 
further details with the committee and share those lessons.
                                 ______
                                 
      QUESTIONS SUBMITTED JOINTLY BY MS. SLOTKIN AND MS. SHERRILL
    Ms. Slotkin and Ms. Sherrill. Part I: Over the past 3 years, we 
have seen time and again the politicization of the U.S. military. The 
list is long: sending active duty troops to the southern border, taking 
nearly $10B from the Department of Defense budget for the border wall, 
withdrawing troops from northern Syria in advance of a Turkish 
incursion and redeploying them to guard Syrian oil fields, downplaying 
the threats of COVID-19 for service members, threatening to deploy 
Active Duty troops to American cities against Governors' wishes, 
deploying the National Guard to Lafayette Square and moving unarmed 
protestors for the President's photo op at the St. John's Church on 
June 1.
    These events, particularly those in the past few months, seem to 
reinforce the idea that the President sees the military not as a 
constitutionally established instrument of government, but as an armed 
force that exists to serve him personally, for his own personal and 
political gains.
    This pains us, one of us a proud Army wife, stepmom to a new Army 
officer, and former Acting Assistant Secretary of Defense, and the 
other a U.S. Naval Academy graduate, former Navy helicopter pilot, and 
former Federal prosecutor. We believe, and hope that you agree, that 
the American people need and want our military to adhere strictly to 
its tradition of remaining apolitical. This is especially important 
given the significant authority of the Department of Defense. Given 
these events, we feel compelled to look ahead to decisions that you, as 
the most senior defense officials, may be called upon to make in the 
next 6 months. These decisions will fall squarely into the 
constitutional roles that you both swore to uphold and we know you both 
respect. We are relying on you both to preserve the system that our 
founding fathers designed.
    Secretary Esper. Throughout our nation's history, the U.S. military 
has been a force for good. The Department of Defense's enduring mission 
is to provide combat-credible military forces needed to deter war, 
defend our nation, and protect the security of our nation. The 
Department of Defense remains committed to carrying out this mission, 
consistent with the Constitution and the law.
    Ms. Slotkin and Ms. Sherrill. Part II: First, on conducting 
military operations outside the United States ahead of an election: Do 
you agree that the U.S. military powers should be used only to advance 
the national security of the United States, and not for any one 
President's political gain? If the President proposes military action 
in the next few months that was meant to distract the American public 
instead of protect American security, would you refuse such an order?
    Second, on the use of military forces in our national elections: As 
you are aware, there is almost no precedent for deploying uniformed 
military members to the polls on election day. Are there any 
circumstances in the 2020 elections when you would deem it necessary to 
send the U.S. military to be present at polling places? Do you believe 
that the military should be involved in administering or tallying 
results of an election? If you were ordered to send Active Duty 
military to be present at the polls during election day, would you 
refuse such an order?
    Third, on the military's role in supporting a peaceful transition 
of Presidential power: Are you aware that the U.S. Congress certifies 
the results of the electoral college? Do you commit to facilitating a 
peaceful transition of power that reflects the certification of 
Congress? Are you both committed to the principle that there can only 
be one President at a time? Do you both recognize that your oaths to 
the Constitution and the chain of command itself require you to act on 
the orders of the legitimate President, and only the legitimate 
President, once he or she is sworn in on January 20, 2021?
    Secretary Esper. The U.S. military has acted, and will continue to 
act, in accordance with the Constitution and the law.
    Ms. Slotkin and Ms. Sherrill. Part III: Finally, you both affirmed 
to the Armed Services Committee on July 9, 2020, that you are aware 
that, under the Constitution, the duly elected President is the sole 
Commander in Chief of the United States. You both further affirmed that 
you are aware that the chain of command runs from the duly elected 
President as Commander in Chief to the Secretary of Defense, and from 
the Secretary of Defense to the commanders of the combatant commands. 
Secretary Esper, you confirmed that you are aware that Secretaries of 
Defense serve at the pleasure of the President, subject to the advice 
and consent of the Senate, and can be removed by the President at his 
or her legal discretion. General Milley, you confirmed that you are 
aware that the Uniformed Code of Military Justice criminalizes mutiny 
and sedition and attempted mutiny and sedition and applies to every 
uniformed member of the Armed Services, including yourself.
    You both affirmed your oaths to the Constitution, and affirmed that 
your oath requires you to support and defend the Constitution of the 
United States against all enemies foreign and domestic and bear true 
faith and allegiance to the same.
    Finally, you both confirmed your understanding of the Insurrection 
Act, which provides, ``Whenever the President considers that unlawful 
obstructions, combinations, or assemblages, or rebellion against the 
authority of the United States, make it impracticable to enforce the 
laws of the United States in any State by the ordinary course of 
judicial proceedings, he may call into Federal service such of the 
militia of any State, and use such of the armed forces, as he considers 
necessary to enforce those laws or to suppress the rebellion.''
    Secretary Esper. The U.S. military has acted, and will continue to 
act, in accordance with the Constitution and the law.
    Ms. Slotkin and Ms. Sherrill. Part IV: A legitimate President, 
therefore, might well have a factual basis to deem an illegitimate 
President claiming power to be acting in ``rebellion against the 
authority of the United States,'' and in turn to consider utilizing 
Insurrection Act authorities should it otherwise be ``impracticable to 
enforce the laws of the United States.'' Anyone in the chain of command 
would, in turn, be legally compelled to obey the legitimate President's 
orders--and not any orders of the illegitimate President. Is that 
correct? If somebody other than the legitimate President as certified 
by Congress ordered you to use the military to prevent the peaceful 
transition of power from one President to another, would you refuse 
such an order?
    Secretary Esper. [No answer was available at the time of printing.]
    Ms. Slotkin and Ms. Sherrill. Part I: Over the past 3 years, we 
have seen time and again the politicization of the U.S. military. The 
list is long: sending active duty troops to the southern border, taking 
nearly $10B from the Department of Defense budget for the border wall, 
withdrawing troops from northern Syria in advance of a Turkish 
incursion and redeploying them to guard Syrian oil fields, downplaying 
the threats of COVID-19 for service members, threatening to deploy 
Active Duty troops to American cities against Governors' wishes, 
deploying the National Guard to Lafayette Square and moving unarmed 
protestors for the President's photo op at the St. John's Church on 
June 1.
    These events, particularly those in the past few months, seem to 
reinforce the idea that the President sees the military not as a 
constitutionally established instrument of government, but as an armed 
force that exists to serve him personally, for his own personal and 
political gains.
    This pains us, one of us a proud Army wife, stepmom to a new Army 
officer, and former Acting Assistant Secretary of Defense, and the 
other a U.S. Naval Academy graduate, former Navy helicopter pilot, and 
former Federal prosecutor. We believe, and hope that you agree, that 
the American people need and want our military to adhere strictly to 
its tradition of remaining apolitical. This is especially important 
given the significant authority of the Department of Defense. Given 
these events, we feel compelled to look ahead to decisions that you, as 
the most senior defense officials, may be called upon to make in the 
next 6 months. These decisions will fall squarely into the 
constitutional roles that you both swore to uphold and we know you both 
respect. We are relying on you both to preserve the system that our 
founding fathers designed.
    General Milley. The Constitution and laws of the U.S. and the 
States establish procedures for carrying out elections, and for 
resolving disputes over the outcomes of elections. State and Federal 
governments have qualified officials who oversee these processes 
according to those laws. We are a nation of laws. We follow the rule of 
law and have done so with regard to past elections, and will continue 
to do so in the future. I do not see the U.S. Military as part of this 
process; this is the responsibility of Congress, the Supreme Court, and 
components of the Executive Branch.
    Ms. Slotkin and Ms. Sherrill. Part II: First, on conducting 
military operations outside the United States ahead of an election: Do 
you agree that the U.S. military powers should be used only to advance 
the national security of the United States, and not for any one 
President's political gain? If the President proposes military action 
in the next few months that was meant to distract the American public 
instead of protect American security, would you refuse such an order?
    Second, on the use of military forces in our national elections: As 
you are aware, there is almost no precedent for deploying uniformed 
military members to the polls on election day. Are there any 
circumstances in the 2020 elections when you would deem it necessary to 
send the U.S. military to be present at polling places? Do you believe 
that the military should be involved in administering or tallying 
results of an election? If you were ordered to send Active Duty 
military to be present at the polls during election day, would you 
refuse such an order?
    Third, on the military's role in supporting a peaceful transition 
of Presidential power: Are you aware that the U.S. Congress certifies 
the results of the electoral college? Do you commit to facilitating a 
peaceful transition of power that reflects the certification of 
Congress? Are you both committed to the principle that there can only 
be one President at a time? Do you both recognize that your oaths to 
the Constitution and the chain of command itself require you to act on 
the orders of the legitimate President, and only the legitimate 
President, once he or she is sworn in on January 20, 2021?
    General Milley. I am aware of Congress' role in certifying the 
results of the Electoral College, codified in Title 3 of the U.S. Code. 
In the event of a dispute over some aspect of the elections, by law 
U.S. courts and the U.S. Congress are required to resolve any disputes, 
not the U.S. Military. I foresee no role for the U.S. Armed Forces in 
this process. I and every member of the Armed Forces take an oath to 
support and defend the Constitution of the United States, and to follow 
the lawful orders of the chain of command. We will not turn our backs 
on the Constitution of the United States.
    Ms. Slotkin and Ms. Sherrill. Part III: Finally, you both affirmed 
to the Armed Services Committee on July 9, 2020, that you are aware 
that, under the Constitution, the duly elected President is the sole 
Commander in Chief of the United States. You both further affirmed that 
you are aware that the chain of command runs from the duly elected 
President as Commander in Chief to the Secretary of Defense, and from 
the Secretary of Defense to the commanders of the combatant commands. 
Secretary Esper, you confirmed that you are aware that Secretaries of 
Defense serve at the pleasure of the President, subject to the advice 
and consent of the Senate, and can be removed by the President at his 
or her legal discretion. General Milley, you confirmed that you are 
aware that the Uniformed Code of Military Justice criminalizes mutiny 
and sedition and attempted mutiny and sedition and applies to every 
uniformed member of the Armed Services, including yourself.
    You both affirmed your oaths to the Constitution, and affirmed that 
your oath requires you to support and defend the Constitution of the 
United States against all enemies foreign and domestic and bear true 
faith and allegiance to the same.
    Finally, you both confirmed your understanding of the Insurrection 
Act, which provides, ``Whenever the President considers that unlawful 
obstructions, combinations, or assemblages, or rebellion against the 
authority of the United States, make it impracticable to enforce the 
laws of the United States in any State by the ordinary course of 
judicial proceedings, he may call into Federal service such of the 
militia of any State, and use such of the armed forces, as he considers 
necessary to enforce those laws or to suppress the rebellion.''
    General Milley. I recognize that there is only one legitimate 
President of the United States at a time in accordance with U.S. law. I 
along with the entire U.S. military will follow the lawful orders of 
the legitimate President of the United States as determined by law.

                                  [all]
</pre></body></html>
